<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                   

                         [H.A.S.C. No. 116-32]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2020

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                          THE FISCAL YEAR 2020

                     NATIONAL DEFENSE AUTHORIZATION

             BUDGET REQUEST FOR THE DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                             APRIL 10, 2019

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-499 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
KATIE HILL, California               MICHAEL WALTZ, Florida
VERONICA ESCOBAR, Texas
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia

                     Paul Arcangeli, Staff Director
                 Katy Quinn, Professional Staff Member
                Dave Sienicki, Professional Staff Member
                          Justin Lynch, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Neller, Gen Robert B., USMC, Commandant, U.S. Marine Corps.......     7
Richardson, ADM John M., USN, Chief of Naval Operations..........     6
Spencer, Hon. Richard V., Secretary of the Navy..................     4

                                APPENDIX

Prepared Statements:

    Richardson, ADM John M.......................................    63
    Smith, Hon. Adam.............................................    51
    Spencer, Hon. Richard V......................................    54

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Brown....................................................    89
    Mr. Cisneros.................................................    89
    Mr. Conaway..................................................    88
    Mr. Langevin.................................................    83
    Mr. Larsen...................................................    83
    Mr. Turner...................................................    84
                 THE FISCAL YEAR 2020 NATIONAL DEFENSE

                  AUTHORIZATION BUDGET REQUEST FOR THE

                         DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, April 10, 2019.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. Adam Smith (chairman 
of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. We will go ahead and call the 
committee to order.
    It is going to be a little bit more confusing today because 
we have votes. We scheduled this hearing before they changed 
the schedule, and votes will be coming sometime in the next 
half hour. We will take the votes and come back. We will try to 
get through as much as we can.
    There is no particular hard stop, as I understand it, but 
we will probably go till about 1 o'clock would be the plan. 
That is normally when things fade. But we will see where people 
are at after that point.
    Also, I will not be here for the full hearing, massive head 
cold, which is getting better. But Mr. Langevin will be in the 
chair for the last part of the meeting.
    But, with that, I am pleased to welcome the Secretary of 
the Navy, the Honorable Richard Spencer; Admiral John 
Richardson, Chief of Naval Operations; and General Robert 
Neller, Commandant of the Marine Corps.
    This seems to be a theme with our hearings these days, but 
as I understand it, Admiral Richardson and General Neller are 
soon to retire and may not have the pleasure of coming before 
our committee again. So I want to thank both of you for your 
outstanding service to the country and for your work with this 
committee. You have both done a great job of being very open, 
cooperating with us over here in Congress. I think we have 
worked very well together. I appreciate that relationship, and 
I appreciate your dedication and hard work.
    With that, I have an opening statement, which I will submit 
for the record, and just make three quick points off of the top 
of it.
    First, I think the biggest challenge within the Department 
of the Navy right now is the new ships that you are building 
and preparing to build. And to put it bluntly, we have not had 
the best past record in terms of developing new large programs. 
We have had a number of them that never quite got off the 
ground, others that were truncated and wound up costing us a 
great deal of money.
    I think the number one most important thing that I want to 
hear from all of you today is how are we going to do better 
going forward with the new frigate we are talking about doing 
as a--as I understand, it is something of a replacement to the 
LCS [littoral combat ship]. As we are developing new ships in a 
number of areas of capabilities, how can we be confident that 
this time we actually are going to get what we are looking for 
and not wind up wasting money, and wind up with a product, 
because the history of that has been truly painful. Everything 
is expensive in this business, but it is really tough when you 
spend the money and you don't wind up with any product on the 
back end of that.
    Second is readiness and training issues. And I really want 
to thank Admiral Richardson in particular. You have been very 
open in discussing with us, you know, your investigations into 
the accidents and the USS Fitzgerald and the McCain. We 
obviously need to do better. It is not just the Navy, it is 
throughout the force, in terms of training, making sure that we 
keep the men and women who serve safe as we do this. So I would 
love to get an update on readiness, where that is at, and how 
you see us being in a better position to avoid these types of 
accidents going forward.
    Lastly is an issue that I know will come up, and that is 
the issue of readiness as it relates to the deployment to the 
southern border and how it impacts the readiness of the force. 
I have no doubt that it is not a huge impact. It doesn't help. 
It is an additional distraction to the overall mission of the 
military. We are also concerned about the taking of money out 
of the Department of Defense to go towards the President's 
emergency on the southern border in building that wall.
    But the one message--and this message is not for the people 
here, it is just on the issue that I think is really important. 
There wasn't actually any crisis at the border when President 
Trump took office. We were doing better than we had done in 
about 15 years. Two-plus years later, it is a mess. And you can 
debate, you know, what the solution is. Is it a crisis? Is it 
an emergency? But you cannot debate that the situation on our 
southern border is vastly worse than it was 2 years ago.
    Personally, I don't think spending tens of billions of 
dollars on a wall is going to change that equation. The biggest 
thing driving it is people are desperate, primarily in Central 
America, and they are coming because of that desperation. So if 
we are going to solve this, let's start thinking about how we 
can stop them from being so desperate in coming to our border.
    And most of the crisis right now is asylum seekers. It is 
not people trying to sneak into the country; it is people 
showing up and making themselves available for asylum. And I 
don't know exactly what policies have led to this, but there 
are a couple that don't help. One, we have dramatically reduced 
the number of people being allowed in as refugees. We are 
making asylum tougher and tougher to seek, so people out there 
are desperate. They don't see a process, those who are trying 
to get out of horrific situations, particularly in Central 
America.
    Lastly, with a daily threat of closing the border, folks 
feel like this is it. If they don't come now, they are never 
going to have a chance. Sorry. Not lastly. One other thing. 
Cutting off aid to Central American countries that are 
struggling, that are beset with violence and poverty and a lack 
of economic opportunity only makes it more likely that more 
people are going to come.
    We can build all the walls and send all the troops and set 
up all the sensors and do everything we have got, as long as we 
create a situation where more and more people are going to try 
to come into our country, we are never going to be able to deal 
with it. We need to get at the source of the problem so we can 
take the pressure off of the Pentagon, off of you gentlemen, so 
that DHS [Department of Homeland Security] isn't always showing 
up and asking you to do things that they ought to be able to 
handle themselves.
    We have got enough to do with the Department of Defense, to 
get the readiness up to where we want it, to meet the national 
security threats in the complex threat environment. We don't 
need to create a bigger problem on the southern border that 
distracts from those already difficult and incredibly important 
missions that you all at the Department of Defense are trying 
to implement.
    With that, I will turn it over to Mr. Thornberry for his 
opening statement.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 51.]

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman.
    And let me join in welcoming our witnesses. And may I 
begin, General Neller, by expressing condolences to the Marine 
Corps and to the family and friends and colleagues of the three 
Marines who lost their lives yesterday in Afghanistan. I think 
it is important for their family and others to know that they 
were there to protect our country. That was their mission. And 
we grieve their loss and honor their service.
    I also want to thank Admiral Richardson and General Neller 
for your service over many years. I am not quite ready to let 
you all go yet. As we work our way through a number of issues, 
I am sure we will have a lot of interactions with the 
committee, but I join the chairman in appreciating what you all 
have done.
    If you step back and look from when each of you first 
assumed your current position, in some ways, things are on a 
better track. We have a National Defense Strategy. We have, 
this year, a budget that is, you can debate to what degree, but 
at least somewhat tied to that National Defense Strategy and is 
looking ahead at the challenges that we face before us. My 
sense, and this is what I am going to ask you in a minute, is 
that we have turned the corner, maybe, on readiness. I noticed 
there was a study that was published yesterday that said, for 
aviation, the Navy was slightly worse last year than the 
previous year. The Marine Corps was slightly better. But if you 
look at overall accident rates, it is somewhat better than it 
was, even though it is still way too high.
    I join the chairman, Admiral, in appreciating the efforts 
you all have made on the surface combatant accidents and 
training and so forth that you all have tried to improve.
    And I will say, another way things are getting better, as I 
was heartened by the reports yesterday, that finally there are 
some serious discussions going on about a cap deal. Because as 
all three of you have talked about before with this committee, 
it is the amount of funding and the consistency of funding that 
enable you all to make the most use of the dollars that the 
taxpayers provide.
    So there will be a lot of questions today, a lot of issues. 
I am going to avoid the border debate for the moment.
    But I guess the last thing I would say is, even though we, 
in my estimation, are on a better track, the enemy always gets 
a vote. And they are not going to wait for us to get our act 
together. So there is still a sense of urgency dealing with the 
shipbuilding issues the chairman talked about and other things. 
I am sure we will touch on most of those today.
    Again, I thank all of you for being here.
    I yield back.
    The Chairman. Thank you.
    Mr. Spencer.

  STATEMENT OF HON. RICHARD V. SPENCER, SECRETARY OF THE NAVY

    Secretary Spencer. Chairman Smith, Ranking Member 
Thornberry, distinguished members of this committee, on behalf 
of our sailors, our Marines, and our civilian teammates, we 
want to iterate yet again thank you for your bipartisan support 
of restoring funding stability.
    Before I begin, I would also like to reflect what the 
ranking member just said, and we all keep the three Marines 
that were lost in our prayers and our thoughts, and also one of 
our allies. The Japanese lost somebody who is still being 
searched for, and we should keep our allies in our thoughts and 
prayers.
    I would be remiss not to say, wearing a businessman's hat, 
that I could not have asked for two better business partners in 
the last 20 months of working here as Secretary of the Navy. 
The CNO [Chief of Naval Operations] and the Commandant have 
been terrific. If I was to put my business hat on and use 
business terms, ladies and gentlemen, the Navy that I sat down 
to was literally a corporate turnaround. We have made herculean 
efforts, and you will hear about them today.
    But these two gentlemen, there was no light between us as 
we walked down the path and moved some big rocks out of the 
way. And I would like to tip my hat because this is their last 
time probably in front of you. But more importantly to me, I am 
going to lose two great people this summer. I am going to gain 
two great ones. But for this moment, I would like to say thank 
you in public.
    The concept of a strategy is the application of limited 
resources to attain a goal. Aligned to the National Defense 
Strategy, the Navy strategy for restoring readiness, 
strengthening relationships, and reforming our processes has 
been set. And we build on that with a discipline focused on 
people, capabilities, and processes.
    This budget prioritizes a strategy-driven balanced approach 
to investment. It builds on prior investments that we have 
made, sustains the industrial base, and maintains our 
competitive advantage, if not expands it in certain areas, as 
we transition to a more cost-imposing survivable and affordable 
future force.
    The restoration of readiness is well underway, and we are 
seeing progress each and every day. My analogy is that the wind 
vanes are all pointed in the correct directions. And although 
we might be frustrated with the velocity, we continue to 
increase it day by day.
    We are building the strength of our team through hiring in 
areas of critical need, such as cybersecurity specialists, 
aviation technicians, scientists and engineers, human resource 
specialists, shipyard workers, and digital warfare officers. We 
are aligning and enhancing our educational institutions and our 
distributed learning venues through the Education for Seapower 
Review.
    And we are taking aggressive actions to return private 
military housing to a premium product, mindful that while we 
recruit the individual, we retain the family.
    All of these actions have one common thread: the goal of 
increased readiness. We are building our capabilities through 
investments in hypersonics, machine learning, additive 
manufacturing, quantum computing, and directed energy. We are 
building the fleet in pursuit of a 355-ship Navy, manned and 
unmanned, to include the Columbia-class submarine, next-
generation frigate, remotely piloted sea platforms such as Sea 
Hunter and Orca. These efforts are increasing lethality through 
our increased distributed maritime operations.
    To reach the Secretary's goal of 80 percent mission-capable 
tactical aircraft, we have realigned investments in new spare 
parts, aviation engineering, logistical support, through our 
newly created Navy Sustainment System, incorporating best 
practices from outside the wire or, as we might say, from 
commercial airline maintenance leaders.
    As a pilot program, these activities have moved us to 
review our processes in all maintenance areas within the naval 
enterprise, to include ship, weapon, vehicle maintenance and 
sustainment.
    Driven by the Marine Corps Force 2025 Capability Investment 
Strategy, we are investing in the amphibious combat vehicle, 
loitering munitions, and unmanned logistical systems in order 
to maintain and, as I said earlier, expand our competitive 
advantage on the margins.
    Exercising the Marine Corps operating concept is moving us 
to rapidly progress as a continual learning organization as we 
adapt and experiment in our new competitive environment. Yet 
while we effect the aforementioned, the Marine Corps is also 
contending with the unprecedented double impact of Hurricanes 
Florence and Matthew, which together damaged or destroyed more 
than $3.7 billion of infrastructure across many of our east 
coast installations.
    Camp Lejeune, as many of you know, is our primary force 
generator for naval services, directly contributing to the 
capacity and readiness of our force. That area took the 
majority of the blunt impact of the storm.
    Over the past year, we have meaningfully increased our 
interaction with our allies and friends. Exercising and 
education have strengthened the ability to operate and, 
therefore, increase the depth of our collected ability to 
deliver the forces required. Compared to a year ago, the 
increase in this depth of our relationship with our allies and 
friends has been the prime contributor to the good of this 
outcome.
    Our Navy has implemented 91 of the 111 Readiness Reform and 
Oversight Council recommendations, transforming a culture of 
accepting risk to one of understanding and managing risk. We 
have reviewed and are in the process of reviewing the 
remediation of our business processes following our first ever 
top-to-bottom audit. The great news on the audit is, ladies and 
gentlemen, it is now proven to be a tool where we can leverage 
lethality.
    We are using this information to streamline operations and 
to reimagine how support functions can be modernized to drive 
continual learning, therefore producing ever increasing 
efficiencies for the American taxpayer. We owe it to them to 
ensure every dollar we invest, every dollar, is invested in the 
most effective manner possible. I am proud to work with this 
committee to keep that promise.
    Thank you.
    [The prepared statement of Secretary Spencer can be found 
in the Appendix on page 54.]
    The Chairman. Thank you, Mr. Secretary.
    Admiral Richardson.

   STATEMENT OF ADM JOHN M. RICHARDSON, USN, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Richardson. Thank you, Chairman Smith, Ranking 
Member Thornberry, and distinguished members of the committee 
for the opportunity to appear alongside Secretary Spencer and 
General Neller to discuss the Navy's fiscal 2020 budget.
    President Jefferson wrote: Industry, commerce, and security 
are the surest roads to the happiness and prosperity of our 
people.
    And the causal link between prosperity, order, and security 
is why he deployed the United States Navy to combat piracy off 
the Barbary Coast at the dawn of the 19th century. And it is 
why, for over two centuries, we have helped keep the seas open 
for all and oppose those who seek to control the seas at the 
expense of America and her allies.
    Today, as outlined in the 2018 National Defense Strategy, 
nations like China and Russia are attempting to do just that, 
to stem the tide that has steadily lifted all boats by 
unilaterally redefining international norms on terms more 
favorable only to themselves.
    The Nation and the Navy are responding with more than 
60,000 sailors deployed aboard nearly 100 ships and submarines 
at this very moment by sustainably operating around the globe 
advocating for our principles and protecting our national 
interests.
    To maintain this worldwide posture, the President's budget 
offers a strategy-driven, future-leaning, balanced approach to 
deliver a naval force up to the task in this era of great power 
competition. The single most effective way to maintain our 
strategic momentum is to provide adequate, stable, and 
predictable funding. This makes everything possible. It 
solidifies strategic planning, incentivizes our commercial 
partners, and mitigates operational risk by maximizing our 
planning and execution time.
    The foundation of naval powers are a force of talented and 
well-trained sailors. And important to our success, we remain 
committed to recruiting and retaining diverse shipmates whose 
intelligence, curiosity, energy, different backgrounds, and 
varied viewpoints will catalyze the speed and quality of 
decisions we need to outperform our adversaries. As well, 
working with Congress, we continue to transform our pay and 
personnel systems to 21st century standards.
    This budget builds a bigger fleet, 55 battle force ships 
over 5 years, preserving our industrial base and strengthening 
our ability to prevail in any warfighting contingency. This 
budget fully funds the Columbia-class ballistic missile 
submarine program, fulfilling our existential imperative to 
deter a nuclear attack on our homeland. This budget builds a 
better fleet, fielding state-of-the-art systems that are more 
agile, networked, resilient, and lethal. This budget recognizes 
that aircraft carriers will be central to winning the future 
fight, which is why it invests in the Gerald R. Ford-class 
delivering far more combat power for less cost over their 
lifetimes than their Nimitz-class predecessors.
    And this budget builds a ready fleet, steaming days to 
exercise at sea, flying hours to train in the air, sufficient 
quantities of ammunition and spares, the resources to conduct 
maintenance today and in the future as the fleet size grows.
    Meeting the Nation's and the Navy's responsibilities is not 
easy. It requires us all to work together. But this is what 
great nations and only great nations can and must do.
    At the dawn of the Cold War, as the Nation took on the 
challenge to go to the moon, President John F. Kennedy, a naval 
officer, said: We do these things not because they are easy but 
because they are hard, because that challenge is one that we 
are willing to accept, one that we are unwilling to postpone, 
and one that we intend to win.
    I am grateful to this committee and your colleagues in the 
Congress for continuing this important work. We look forward to 
sailing alongside you to build and deliver the safest Navy for 
our sailors, the strongest partner Navy for our friends and 
allies, and a Navy that is the worst nightmare for our enemies.
    I look forward to your questions.
    [The prepared statement of Admiral Richardson can be found 
in the Appendix on page 63.]
    The Chairman. Thank you, Admiral.
    General Neller.

   STATEMENT OF GEN ROBERT B. NELLER, USMC, COMMANDANT, U.S. 
                          MARINE CORPS

    General Neller. Chairman Smith, Ranking Member Thornberry, 
distinguished members of the committee, I am here today to 
testify on the posture of your Marine Corps. I appreciate this 
opportunity to be here and look forward to your questions.
    I know this committee, the Congress, and the American 
people have high expectations for our Marines. As our Nation's 
expeditionary force in readiness, you expect your Marines to be 
ready to operate forward with our Navy in the contact and blunt 
layers of the global operating model and to assure our 
partners, deter our rivals, and respond to crises across a 
range of military operations. And if that deterrence should 
fail and we are called to fight, you expect us to fight and 
win.
    As we hold this hearing, approximately 41,000 Marines, 
along with our Navy shipmates, are forward deployed or postured 
to more than 60 countries around the world, some in harm's way 
as we were reminded of 2 days ago, all engaged doing exactly 
what you would expect of them. Through our history, you have 
called upon your Marines to respond immediately to crises 
around the globe, either from the sea, from forward bases, or 
from home station.
    To meet your intent to be ready to suppress or contain 
international disturbances short of large-scale war, we strive 
to prevent war by assuring our allies and deterring our rivals 
with ready, capable, and persistently present expeditionary 
forces.
    Forward postured naval forces, your Navy-Marine Corps team, 
remain critical to that end, providing the Nation a significant 
operational advantage through maneuver access and our presence. 
Supporting day-to-day operations through theater security 
cooperation, building partner capacity, providing, when 
required, humanitarian assistance and disaster relief, or 
supporting current global contingencies requires your 
expeditionary force in readiness to be present.
    We recognize the strategic environment is constantly 
changing, requiring adaptations to our organization, our 
training, our equipment, and our warfighting concepts in order 
to provide our Nation the most lethal naval expeditionary force 
it demands. Your Marine Corps remains committed to building the 
most ready, capable, and adaptable force the Nation can afford. 
This requires hard choices as we balance our commitments to 
current operations, work to continue to improve our readiness, 
and pursue modernization efforts designed to increase our 
competitive advantages over our adversaries.
    Thanks to your efforts in Congress to provide increased and 
on-time funding, you have made some of these choices far less 
difficult. Still, we remain challenged by the lasting effects 
of Hurricanes Florence and Michael that hit the east coast last 
fall. The financial cost of these storms totals $3.7 billion. 
But the impacts go much deeper. I look forward to answering any 
of your questions on this issue.
    I do want to thank the Office of the Secretary of Defense, 
the Congress, and the administration for their work and support 
in approving a $400 million reprogram resources so we can begin 
immediately to address some of those needs at Camp Lejeune and 
the North Carolina area.
    The Marine Corps continues to work tirelessly to address 
our remaining shortfall for this year, but we are prepared to 
make the decisions necessary in the short term so that we 
continue to train and be ready, repair our facilities, and 
continue to increase our readiness.
    Despite these challenges, the Marine Corps remains on the 
right path as we implement the National Defense Strategy. We 
continue to develop effective warfighting concepts and invest 
in the right capabilities, while experimenting ruthlessly to 
validate these choices.
    Most importantly to the success of your Corps, we continue 
to be able to recruit and train the most qualified men and 
women our Nation has to offer, men and women who raise their 
right hand, desire to earn the Eagle, Globe, and Anchor, and 
ask to serve something greater than themselves and represent 
the best our Nation has every day around the world.
    The Navy and Marine Corps team remains our Nation's naval 
expeditionary force in readiness, forward deployed, postured, 
and competing every day. And with the Congress' continued 
support and commitment, we will assure that we must send--if we 
must send our sons and daughters into harm's way, they will 
have every advantage our Nation can afford and provide.
    As was mentioned, this is likely my last opportunity to 
appear before this full committee as I close out 44 years as a 
Marine and the last 4 as a Commandant. And I want to personally 
thank this committee and the Congress for the support you show 
every day to your Marines.
    Thank you, and I look forward to your questions.
    The Chairman. Thank you, General.
    As I mentioned in my opening statements, the two most 
important things we can do is get the caps deal that the 
ranking member referred to so that we can get that budget on 
time by October 1. I know it made a huge difference to actually 
have that last year for the first time in Lord knows how long. 
And the second is passing some sort of supplemental emergency 
funding bill. I know that has really impacted the military. And 
we are going home in a couple hours, and we are not going to 
get it done before the April recess. And that is a huge 
problem, well, for the country, but also for the Department of 
Defense. These are two things that we in Congress need to get 
done to help you.
    Just one area of questioning, Mr. Secretary, is, one of my 
opening comments about, as you are developing new platforms, 
moving forward with the Columbia-class submarine, having a 
replacement for the large surface combatant ships, what have 
you learned?
    I know we have talked a lot about, you know, your efforts 
to try to figure out how to be more cost effective in 
acquisition and procurement, to bring some of your business 
skills. And I have been very impressed with what you guys have 
done in terms of making it more efficient and more effective. 
But this is the big stuff. This is the billions of dollars.
    What did we learn from the mistakes of the past, from the 
expeditionary fighting vehicle, from the DDG 1000 [guided-
missile destroyer] where we wound up with only three ships, 
from the UCLASS [Unmanned Carrier-Launched Airborne 
Surveillance and Strike]? What have you learned from that that 
is going to be different as you move into the these large new 
procurements that are going forward so that we can actually get 
a product in a cost-effective way?
    Secretary Spencer. Chairman, day one arriving, the whole 
approach that I had had with industry is that we truly do have 
to become partners. And that is not just words. My definition 
of partners is shared risk, shared return and benefits. 
Aligning ourselves with people who can solve our problems and 
have skin in the game is the best fundamental formula that we 
can have. We have moved closer and closer towards that as we go 
forward. We have increased the actual----
    The Chairman. If I may, and I am sorry to interrupt, but 
that is all kind of generic speak. What I would love is what is 
a concrete example. Gosh, here is what we did wrong and here is 
how we are going to do it different this time. Just one or two 
concrete examples.
    Secretary Spencer. Fine. Concrete examples. Using 
technology that is available to us off the shelf in designing 
ships and building ships. We now have digital tools versus 
paper. A huge savings in that regard. The concept of modular 
building, increasing modular building. Do we force that upon 
the contractor themselves? No. Do we help them and steer them? 
Do we work together? Yes, we do. Again, cost savings in that 
regard.
    Requirements. Focusing requirements and understanding that 
the contractor is in the game. And the reason I led with that, 
Chairman, is we have to know what is the best solution that 
they have, to walk into the marketplace and say I want this, 
this, and this and this, without the supplier going, wow, if 
you took this path, I can save you 15 percent.
    That is the two-way communication that has really helped us 
going forward as far as partnership goes.
    The Chairman. Yeah. That is exactly what I wanted to hear. 
And that makes sense. And that is incredibly important going 
forward to make sure that we follow through on that.
    We have got votes coming up, so I will cut this short and 
go to Mr. Thornberry.
    Mr. Thornberry. Admiral and Commandant, I mentioned at the 
beginning, my sense is that we turned a corner on readiness, 
but we are certainly not where we need to be. And I would 
appreciate each of you kind of stepping back and giving this 
perspective of where we have been, where we are, and where we 
are going on the broader readiness issues that we have talked 
about with this committee so much.
    Admiral Richardson. Thank you, sir. I will take the first 
stab and then hand it off to the Commandant.
    First is that we funded those readiness accounts. And so 
since I have been CNO, we have been steadily funding those at 
pretty much the requirement or the maximum executable. And that 
has allowed us, particularly in the enabler accounts, as we 
call them, the parts, the engineering, and everything to 
support readiness, the flying hour program, the steaming hour 
program, maintenance programs, all of those have been funded.
    Then in response to the collisions in the 7th Fleet, as 
we've briefed, we have got a comprehensive review and a 
program. The Secretary highlighted the number of measures that 
we have taken. But really, what we have done is working on a 
change of culture there. So the first thing we did is 
reestablish schedule discipline out in the 7th Fleet. We don't 
send a ship out to do a mission until they are maintained, 
trained, and certified to do that mission. And that return of 
that discipline has ensured that our ships are ready to go.
    With respect to the training required both pipeline--
career-based training. As I pointed out in my written 
statement, the amount of sea time and experience that an 
officer will get when they take command is almost double now 
with this new career path than it was before. As well, the 
schoolhouse training has increased at every level of an 
officer's career. And not only in amount but also quality as we 
have brought in a lot of high-fidelity simulators to enhance 
that training and complement the at-sea training.
    And so, really, we have moved from a climate where we 
needed to make sure that we were safe to operate, then able to 
comply with all requirements, now really striving towards that 
culture of excellence, measuring ourselves the whole way to 
make sure that we are achieving the goals that we set out to 
achieve.
    Mr. Thornberry. Just briefly, Admiral, how far do we have 
to go?
    Admiral Richardson. Well, this is really establishing a new 
normal, sir. And so I would say that, in many ways, we are at 
that new normal. Some of this is going to be career-long types 
of things. And so we need to--I would advocate for letting this 
program have some run time so that we can see some of the 
longer term benefits before we start to make changes. That was 
one of the symptoms of the past is that we kept moving the 
goalposts. And so I think we have got ourselves on a good 
course. Many of the near-term goals have already been met. Some 
of the longer term goals are going to be career-type things. 
And then these simulators are going to be in place for the next 
couple of years. So I think we are on a good track, sir.
    General Neller. Ranking Member Thornberry, you know, you 
asked if we turned the corner. It is like being too ready is 
like having too much money or being too good-looking. It is 
impossible to be too ready.
    So have we improved? Absolutely. And I can quantify that 
for you, particularly with aviation. More hours flown, more 
ready aircraft, the goal of 80 percent TACAIR [tactical air], 
which means we are--based on OSD [Office of the Secretary of 
Defense] standards, we have--10 squadrons are supposed to have 
12 jets, which means we have got to have 96 jets that can fly. 
We have been up into the 80s. So we are continuing to strive 
for that. And it will be--we may make it like for 1 or 2 days, 
but it will be very difficult to sustain that level. But as the 
CNO said, we had not previously funded the readiness accounts.
    The training piece of this is even more different, because 
at the same time we have current operations, we are trying to 
modernize those capabilities to be able to be effective for the 
current op, and we are trying to change the force fundamentally 
for what we anticipate the fight to be in the future. So a lot 
of the training changes that we have been able to do because of 
the resources allow us to fight more against a peer adversary 
as opposed to operate in what we have done in the last 17 
years, 18 years, which is a counterinsurgency, stability, 
counterterrorism fight. And it is fundamentally different 
having to consider mentally the training aspects to fight 
against an adversary who has an air force, who has long-range 
fires, who can jam your nets, who can take down the network. 
And so, obviously, those capabilities are things that we need 
to look at.
    Now, our ability to operate in cyber, in the information 
domain, to protect our network, which is our friendly center of 
gravity, the thing that we have to protect to be able to 
operate.
    So are we making progress? Absolutely. Turning the corner? 
We continue to make progress, and we are never going to be 
satisfied that we are too ready.
    Admiral Richardson. Sir, if I could just add on a little 
bit. The Congress has been working, really, hand in hand with 
us. We talked, both the Commandant and I, about funding. And I 
would say since the 2017 request for additional appropriations, 
the 2018 and 2019 budgets has helped tremendously. We hope to 
keep that momentum.
    Mr. Thornberry. Thank you, Mr. Chairman.
    The only thing I would say is, by turn a corner, I mean it 
is not getting worse, it is getting better. That is the corner.
    General Neller. No, it is quantifiably better, and I can 
show you the metrics for that. Yes, sir.
    Mr. Thornberry. Yeah. I appreciate it.
    I yield back.
    The Chairman. There are always more corners, but it is good 
to have that one turn. I agree with the ranking member. We have 
made an enormous amount of progress.
    Votes have been called. We can get through one questioning 
and then go, so we will start with Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to welcome our witnesses here this morning. Thank 
you for your testimony. In particular, Admiral Richardson, 
General Neller, thank you both for your service to the country. 
I know that you said this is the--and the Secretary said this 
is the last appearance likely before the committee. And I want 
to just thank you for your service. You have all made a 
difference both improving our military and enhancing our 
national security. For that we are grateful.
    Secretary Spencer, if I could start with you. I understand 
that you recently commissioned a review of our cybersecurity 
readiness of the Navy and Marine Corps. And I think you 
commissioned that study. Cybersecurity clearly is one of the 
greatest challenges that I believe that we face as a Nation, 
both now and going forward. Again, I commend you for taking the 
step in doing the study and commissioning it.
    However, I also understand that one of the primary findings 
of the report was that--with the need to change the culture of 
the Navy in a way that must stem from the senior-most 
leadership. So I was a little disappointed that you didn't 
expand upon that more in your opening statement. But if, you 
know, going forward, if you can expand upon that right now, 
because the bottom line is, if you don't prioritize it, you 
know, how can we expect your deputies to do so? So can you help 
the committee understand what you are doing in response to the 
review's recommendations?
    Secretary Spencer. Congressman, thank you. I could spend a 
day on this topic. And it is a high-priority topic, if not one 
of the highest. And one of the things that came out of the 
study, and the reason we had the people on the study that were 
there, was to look outside the wire and see some of our 
compatriots in large organizations who have gone down the cyber 
path and the learning curve--JPMorgan, Caterpillar, large 
corporations.
    And in every single case, every single case, it starts at 
the top. You hit the nail on the head. It is a cultural issue 
and it is a mechanical issue. It is a hygiene issue for data. 
And it has to be led at the top.
    We have right now, one of the members of the group who did 
the study is on board in Navy right now prioritizing the 
findings that he helped write to put together our remedial plan 
to go forward on the cyber issues facing the Navy and Marine 
Corps team.
    Mr. Langevin. Okay. I look forward to working with you on 
that.
    Secretary Spencer. Most definitely.
    Mr. Langevin. Our enemies and adversaries are not standing 
still on this, and they used this asymmetric technology to 
undermine our advantages, and we want to make sure that we are 
as resilient and strong in that area as possible.
    Secretary, I also wanted to say I am concerned about the 
resiliency of Navy and Marine Corps bases due to the effect of 
climate change and rising sea levels. Thank you for--obviously, 
you identified Camp Lejeune as having taken a major hit. 
Billions of dollars of damage done as a result of a storm that 
they had to go through. And, you know, really underscores the 
need for the Navy and the Marine Corps to consider resilience 
in their installation master plans.
    So on this point, what investments are you making today in 
order to mitigate risks that we are going to face in the short, 
medium, and the long term to our CONUS [continental United 
States] and OCONUS [outside continental United States] 
institutions, and how are you evaluating those risks as they 
evolve? Otherwise, if we are not planning ahead--you know, we 
have to face the fact that climate change is here and it is 
going to cost us more if we don't prepare for it and mitigate 
those effects going forward.
    Secretary Spencer. Congressman, spot on. I share those 
exact same concerns. We have done an inventory around all our 
bases. And it is not just rising water. It is drought. It is 
fire. It is any weather-induced massive impact to our bases. 
And we have done our analysis.
    As an example, Norfolk. We have a MILCON [military 
construction] project for, in most simplest terms, diking 
around Norfolk for rising waters. Camp Pendleton. We are 
constantly looking at how we can address fire control at Camp 
Pendleton. All our seaside bases, we are looking at what we can 
do going forward with all our projects to add into those 
projects rising water and/or weather-related events.
    Mr. Langevin. Thank you. I want to continue to work with 
you on that as well.
    Secretary Spencer. Yes, sir.
    Mr. Langevin. Finally, as you know, China, it appears, has 
fielded a railgun. We are making advances in railgun 
technology. When are we going to be fielding our railgun?
    Secretary Spencer. Congressman, we have a whole priority of 
advanced weapons that we have talked about, directed energy. 
Railgun is in there. I actually will defer to the CNO quickly 
on the actual technical application there.
    It is a priority. Put it this way, it has been prioritized 
within the Navy. We are focusing on some other areas that we 
think are probably more productive when it comes to a weapon.
    But, CNO, I don't know if you have anything to add to that.
    Admiral Richardson. Sir, we are continuing to work on the 
railgun.
    The Chairman. The gentleman's time has expired. I don't 
want to rush you. Sorry. I should have said this upfront. I try 
to keep people to the 5 minutes. But if you have something 
quick, Admiral, go ahead, since we are----
    Admiral Richardson. We are continuing. We are working on 
integration. We are going to take the railgun out to White 
Sands. And we have made some great progress not only on the gun 
itself, which is a lot of energy in a short period of time, but 
also on the projectiles. The high-velocity projectile is as 
much a benefit from that program as anything else because they 
are adaptable to other guns as well. So there is money in the 
budget to advance this program this year.
    The Chairman. Thank you. I apologize. I should have pointed 
out for the witnesses. We try to keep them to the 5 minutes as 
much as possible. And I don't want to cut you off at mid word. 
But we will try to move it on.
    We have five votes, I think. Doing the math, and it pains 
me to say this, it is probably going to be about 11:45 before 
we get back. We don't move too quickly over on the floor, 
regrettably.
    So we will just plan on reconvening at 11:45. And I 
appreciate your patience.
    We are in recess.
    [Recess.]
    Mr. Courtney [presiding]. The committee will come back to 
order. Mr. Smith again has other commitments, and he asked me 
to fill in for him.
    With that, I will yield to Mr. Wilson for 5 minutes.
    Mr. Wilson. And thank you very much, Acting Chairman 
Courtney.
    And, gentlemen, it is particularly an honor for me to be 
here with you--and thank you for your service--in that I am 
here as a Member of Congress, but also as the very grateful dad 
of a naval doctor, who works with the Marines, General, at 
Parris Island.
    And I am also very grateful and wish you well in your 
retirement, General Neller. You have made such a difference on 
behalf of our country.
    And, Secretary Spencer, the fiscal year 2020 budget request 
includes approximately $10 billion for cybersecurity. South 
Carolina is uniquely positioned to advance cybersecurity 
partnerships that enhance the U.S. capabilities to compete with 
adversaries in cyber domain. Our Adjutant General Van McCarty 
is advancing cybersecurity partnerships through existing force 
structure with senior military colleges like The Citadel and 
the proximity of key infrastructure. How does this request 
reflect the new cyber strategy? Does this request include any 
programs that work with universities or industry?
    Secretary Spencer. Thank you, Congressman. I had the 
pleasure of joining, I believe, Senator Scott down in 
Charleston about 2 or 3 weeks ago, and he introduced me to the 
military contractors association down there, and we also had a 
chance to tour the new training facilities that are online in 
Charleston for--the nuclear training facilities.
    It does align, and the reason I am pausing for a second is, 
as I told you earlier, the review that I just had done is now 
being created and implemented. Our implementation plan will be 
rolled out. You will see more coming along that way.
    But in the $10 billion, we are aligning ourselves, not only 
through the Naval Postgraduate School, but through other 
organizations and institutions outside the wire.
    Mr. Wilson. That is really encouraging. And also 
encouraging, each of you earlier in the hearing provided an 
update in regard to readiness and the progress that is being 
made toward readiness, and part of that is modernization. There 
are three versions of F/A-18 Hornets that are found aboard the 
Marine Corps Air Station Beaufort, the F/A-18A and C Hornet and 
the F/A-18D Hornet. These are older models showing their age.
    What is the plan, Mr. Secretary, and timeline to replace 
these aging aircraft and add new Super Hornets to the 
inventory?
    Secretary Spencer. As far as the Marine Corps is concerned, 
no new Super Hornets in the Marine Corps. We are transitioning 
to all fifth generation, which, if I am not mistaken, 
Commandant, we are somewhere around 2030 for the actual full 
transition to the F-35B and C.
    Mr. Wilson. That is excellent.
    And, Admiral, I was grateful to have recently met with 
General Steve Lyons, and he testified to this committee the 
need for increased sealift capacity. How is the Navy addressing 
the TRANSCOM [U.S. Transportation Command] commander's number 
one request for increased sealift? What is your assessment of 
the current Ready Reserve Fleet and the ability of it to 
support the National Defense Strategy?
    Admiral Richardson. Sir, as I am sure General Lyons told 
you, we currently meet the requirements, but that fleet is 
aging out quickly. And so the need for recapitalization there 
is urgent. We are taking--working very closely with TRANSCOM 
and also Admiral Buzby. We are taking sort of a three-pronged 
approach. One is to do life extensions where those life 
extensions make fiscal sense. The second approach is to buy 
used ships that will meet the requirements, and we are taking 
advantage of all the authorities that Congress has given us 
with respect to buying used. And then the third is to build 
new. And so it is the combination of those three.
    Right now, though, I think we are also interested--I am 
interested in having a discussion in terms of how we can best 
incentivize domestic shipbuilding in the United States of 
America. And I think that all of this would help, not only the 
sealift part of TRANSCOM's issues, but also alleviate some of 
the cost for DOD [Department of Defense] shipbuilding, Navy 
shipbuilding. So I think that that would be a good thing to 
discuss as part of this as well.
    Mr. Wilson. And additionally, Admiral, I appreciate how the 
budget invests in continuing to rebuild aviation readiness. 
What lessons have the Navy and Marine Corps learned from 
pursuing former Secretary Mattis' goal of 80 percent mission 
capability for the strike fighter aircraft?
    Admiral Richardson. Yes, sir. I think the Secretary has 
described it that we are really going outside to take a look at 
what are the commercial best practices. And we have brought a 
lot of that--those ideas in-house. And so in terms of workflow, 
establishing that workflow and maintaining it, that has allowed 
us to have a steady ramp toward achieving that 80 percent 
readiness, and we are optimistic that that is going to happen.
    And then the stable funding has allowed us to refill parts 
bins and parts baskets that were previously empty, and so that 
is also reducing the time in maintenance.
    Secretary Spencer. Congressman, I got a beef just for a 
second because readiness right now, Navy and Marine Corps team, 
F/A-18s, 67 to 70 percent, which when I was here a year ago, we 
were nowhere near that.
    Mr. Wilson. Progress.
    Mr. Courtney. The gentleman's time has expired. Again, 
going in order, I yield myself 5 minutes.
    First of all, I just want to start by saying, as someone 
who has been on the Seapower Committee for the last 4 or 5 
years, I want to thank all the witnesses for their great work, 
in particular, Admiral Richardson and General Neller, as you 
start to head towards the exit. Again, both of you served 
straddling two administrations, two national security reviews, 
and have really, I think, done an outstanding job in terms of 
just integrity and excellence, and again, I want to thank you 
publicly.
    I would like to focus for a second on the inclusion of 
funding to build a third Virginia-class submarine in the 2020 
budget to be actually executed in the 2023 timeframe. From a 
strategic standpoint, this is a step to more rapidly reach 66 
attack submarines called for in the 2016 Force Structure 
Assessment. Today, of course, the fleet stands at 51 and will 
drop to 42 by 2006.
    Admiral Richardson, can you state what the impact of even 
one additional attack submarine would have on the Navy's 
operational capability? Can you discuss what types of OPLANs 
[operations plans] it would help support, in an unclassified 
setting?
    Admiral Richardson. Sir, I will do my best. One is that 
with respect to our greatest gap between the warfighting 
requirement and current inventory, there is no greater need 
than the attack submarine fleet, as you have highlighted just 
with the numbers. It is a wide gap, and it is getting wider. So 
every single submarine counts against closing that gap.
    Why do we need that force level? Well, in the OPLANs, I 
think it is safe to say in this forum, that particularly the 
more stressing OPLANs in the Pacific and in the Atlantic, the 
first phalanx, the first response among them are going to be 
the submarine response. And they are going to go out there 
early, they are going to use their stealth and speed to get 
into far forward areas and really establish the conditions for 
the rest of the joint force to execute their part of the 
campaign.
    And so right now, we are stressed to meet those 
requirements just because of the force level, in particular, 
combined with maintenance, and so every single submarine 
counts. If you think about a submarine going out there with 26 
tubes in its torpedo room and missiles on board as well and 
coming back empty, it is a tremendous influence on the 
battlespace there, in that asymmetric aspect of it, to open the 
door for the rest of the joint force.
    Mr. Courtney. Thank you. And, again, just to follow up, 
there has been some discussion, you know, the fact that we are 
funding this sub outside the block contract program, which is 
two subs a year. There has been some questions raised about 
whether or not it is adding risk in terms of the Columbia 
program, which obviously is happening pretty much in that same 
timeframe.
    I was wondering if you could just, you know, sort of 
explain whether or not doing it this way, actually with 
flexibility, will, in fact, maybe help de-risk the Columbia 
program.
    Admiral Richardson. Sir, that is exactly how I see it. And 
I was up at Electric Boat just last week to have them walk me 
through that from their perspective. First, I have got to say, 
what a great situation, where a lot--a lot of this involves 
workforce, bringing workforce on, and all of our shipbuilders, 
but it was very vivid there at Electric Boat, are bringing in 
so many young people. About 50 percent of the workforce has 
less than 5 years of experience now, which is just such a 
terrific story in terms of building those skills to do welding, 
pipefitting, electricians, et cetera. So that is part of it.
    They showed me their workload curves and how they are 
actually going to use this to mitigate peaks and valleys, 
smooth out their level of effort. If we get the flexibility to 
do this, as you said, we will fund it in 2020, because the SCN 
[Shipbuilding and Conversion, Navy] profile is much smoother 
then, and then we will execute it as a 2023 ship because that 
smooths out the workforce. So the combination of that really is 
almost a stabilizer rather than an increased risk.
    Mr. Courtney. Thank you. I appreciate that.
    And then one quick question. Again, one of the initiatives 
is the unmanned vessels that, again, are a part of the budget 
here. And, again, I think there is enthusiastic recognition 
that this is where the future is going to be headed. But in 
terms of just, you know, investing upfront this year, I just 
wonder if the two of you could comment a little bit in terms of 
whether or not, you know, we are getting a little ahead of our 
skis in terms of creating a program where the mission set isn't 
quite developed yet and, you know, hopefully we won't repeat 
some of the mistakes of the past.
    Secretary Spencer. Let me go first on that, if I could, 
then hand it over to the CNO.
    Congressman, it is a great observation, but one of the 
things that you have charged us with is to go smartly, go 
quickly, and go intelligently. We believe that what we put 
before you is the intelligent way to go. It is in size, I 
completely agree with that, but we are going to experiment with 
it, we are going to actually, you know, quote/unquote, break 
it, figure out what to do, learn with it, and then go forward. 
This is the way we go fast.
    Admiral Richardson. Sir, I will just add, we are going to 
leverage a lot of work that we have already done with the 
Strategic Capabilities Office, particularly for the 2020 ships. 
So we have got those really kind of underway.
    And then for the follow-on, again, as the Secretary 
discussed, leveraging mature technology and then getting after 
those things with respect to autonomy and unmanned that we just 
really have to explore those. And this is not a capability that 
we want to cede to the adversary because it is going to be 
decisive when we get it right. That is why we have parked it in 
the research and development line. I think that is the 
appropriate place to do work like this, where so many questions 
remain to be explored.
    Mr. Courtney. Thank you to all of you.
    Mr. Scott, you are recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    General, I think that a hurricane hit Camp Lejeune 
September 14. Is that date correct?
    General Neller. Yes, sir.
    Mr. Scott. How are things at Camp Lejeune now?
    General Neller. There have been repairs made. The people 
are back occupying those buildings that they can still occupy. 
So there were two impacts, one was on the private--the public 
housing or the PPV [Public Private Venture] housing. The vendor 
there has fixed about 50 percent of those houses.
    We have gone through and done what we could do with the 
appropriations and the resources we had, and we have 
reprogrammed some money, but we have come up with a list of 
about 31 buildings that we believe the cost to repair exceeds 
the value of the building, and it would be better off to build 
new. Some of those buildings were already in the future 
program. We want to bring them to the left.
    But the end result is, we have a bill, if you take away the 
$400 million that we got last week on reprogramming, we have a 
bill of about $3.1 billion over the next 3 or 4 years, where we 
think--where we need to fix the base so that we don't have to 
go through this again.
    Mr. Scott. Is it safe to say that things will continue to 
degrade unless some type of supplemental disaster assistance or 
appropriation is passed for Camp Lejeune?
    General Neller. If we--well, yes, they will. Otherwise, we 
are going to have to figure out how we are going to have to 
self-fund this. So whether there is reprogramming done within 
the Department or there is a supplemental, we don't have 
insurance. The Congress is our insurance.
    Mr. Scott. Yes, sir.
    General Neller. So----
    Mr. Scott. As is the White House. It is Congress and the 
White House. It takes both to get disaster relief passed.
    General Neller. Yes, sir.
    Mr. Scott. Hurricane Michael hit my district, and we 
haven't received disaster assistance yet either. I know Vice 
President Pence, who I have a tremendous amount of respect for, 
flew down there in two of your--two Marine Corps Ospreys on 
October 16. We are with you and we will stay with you until we 
rebuild and recover better than ever before, is the statement, 
and yet to this day, we have not received a request for 
disaster assistance from the Office of Management and Budget.
    And I am a little taken back with what has happened at Camp 
Lejeune and with the Corps and the damage and the need that you 
have for a supplemental appropriations bill, as well as the Air 
Force, who has basically had to take what they had in operation 
and maintenance money left over and use it to rebuild as best 
they can Tyndall. And now the Air Force is about to be in a 
situation where they are going to be stopping flying unless 
some type of supplemental appropriations is done.
    Congress is about to go on vacation for 2 weeks. The White 
House hasn't even submitted a request for assistance. And I am 
embarrassed, quite honestly, that this job hasn't been done. 
Now, to be clear, there is politics being played on the Senate 
side. If the storm had hit Vermont or if the storm had hit New 
York or if the storm had hit a blue State, then Senators from 
New York and Vermont would not be standing in the way of this 
package passing.
    But have any of you talked with the White House about the 
need for a supplemental disaster assistance package?
    Secretary Spencer. Not directly, Congressman.
    Mr. Scott. Secretary Spencer, I would suggest--I have a 
tremendous amount of respect for you, I have a tremendous 
amount of respect for both of you two, but I think the number 
one thing you could do for the men and women in the Navy and 
the Marine Corps is to speak directly with the White House 
about the need for supplemental assistance.
    I do not think that the President of the United States--I 
do not think President Trump would be allowing Congress to go 
home for 2 weeks if he--if he knew what was about to happen to 
the readiness of the Air Force and the Corps. I think that he 
would be challenging us on--to stay here and get this job done, 
and I think that we could get beyond the petty politics in the 
Senate, but--we want to be a part of the solution.
    I am embarrassed that we are going home. These storms hit 7 
months ago for you. They hit 6 months ago for me. Farmers in my 
area are filing bankruptcy, even though they were promised 
disaster assistance. It hasn't come. You guys need it just like 
we do. And I hope, I hope, Secretary, that you and the other 
secretaries will speak with the White House about the damage 
that is going to be done by not getting a disaster relief bill 
passed before we go home for Easter.
    Thank you for your service.
    Mr. Courtney. Thank you, Mr. Scott.
    Mr. Golden.
    Mr. Golden. Thank you.
    Secretary Spencer and Admiral Richardson, I want to talk 
just a little bit about shipbuilding readiness for a moment. 
The Navy's fiscal year 2020 report to Congress on the annual 
long-range plan for construction of naval vessels noted--that 
is a quote--that a healthy and efficient industrial base 
continues to be the fundamental driver for achieving and 
sustaining the Navy's baseline acquisition profiles and that 
the shipbuilding base is a matter of national security that is 
unique and must be protected.
    As leaders, I know you both know from experience that 
producing people with the right skill sets isn't just not 
something that occurs overnight and takes a great deal of 
training and instruction. So I was very pleased by your--both 
of your remarks, where you put an emphasis on the importance of 
education and training, as well as support for both public and 
private shipyards.
    And as you know, trained shipbuilders, you know, we have 
got some great ones up at Bath Iron Works, and it is something 
that requires some time and investment in workers. It typically 
takes like 5 to 7 years of training in order to get someone to 
achieve shipbuilding proficiency.
    And with the Navy's plans to expand the fleet, I wanted to 
hear your thoughts on what you are doing to encourage young men 
and women to enter into the shipbuilding profession, and what 
you are doing to help private and public shipyards with 
recruitment. I think about this in regards to the younger 
folks, whether they are coming out of high school or looking to 
get into the trades, or even individuals like myself leaving 
the service who are looking for potential career opportunities. 
Anything that you are doing with the shipyards for recruitment 
or training, and what can Congress do to assist and help you 
reach that objective?
    Secretary Spencer. Congressman, that is a great 
observation, and it is happening throughout the whole 
shipbuilding industry, both sides of the Mississippi. But I am 
going to bring Maine out as a specific example. I was up there 
right after my confirmation hearing, visiting Bath, and the 
community colleges in the area there had no exposure or no 
plans to have a curriculum to support what the basic skill sets 
are, nor the high schools.
    I was very encouraged on my last visit up a month ago to 
see that both the community college and the high schools are 
adopting primary skill sets and advanced curriculum in this 
area.
    I mean, it is across the board in the U.S., I think we have 
to address this, because at the end of the day, a level three 
welder and/or any other artisan in the shipbuilding, aviation 
assembling field, it is a very nice career to have.
    Admiral Richardson. Sir, I will just pile on to what the 
Secretary said and add to my comments that this is really 
something that is exciting around the Nation at every one of 
our shipbuilding centers and ship repair centers as well, both 
public and private.
    With respect to the public shipyards, you know, oftentimes, 
we are sort of drawing from the same pool, but it is really a 
team effort, right? We go out as a Navy and try and recruit. 
Some people want to ride and operate those ships as sailors. 
Some people want to design and build those ships as 
shipbuilders or ship repairers. But the apprentice programs, 
the teaming with the community colleges, even down to the high 
school level, they are really pulling out the stops, and they 
are responding to the demand signal for more shipbuilding, 
right? That is the thing that really is the most fundamental 
element of this.
    And so as we continue to grow the Navy, build more ships, 
they are going to--they are going to have places to go after 
they go through this training. So that is the most important 
thing.
    Mr. Golden. All right. Thank you for those thoughts. And, 
you know, I think the community colleges in Maine are doing a 
good job. And the unions have got some great apprenticeship 
training programs. They really make an investment in the 
workers and helping young people get set up for success. So I 
thank you for working to help them in any way that you can.
    And there is some interesting work being done in Maine with 
some individuals that are starting to get into the business of 
trying to recruit for the shipyard and going down, traveling 
around to bases and other places to show people that there is a 
good career waiting for them up in Maine. So I think there is a 
lot of potential there.
    Just real quickly, I wanted to give you an opportunity, 
Admiral. We heard from Vice Admiral Merz about the coming 
online of the Flight III DDG, and just wanted to hear your 
thoughts on what that is going to do to help the fleet, both in 
regards to new capabilities, but also your overall goal of 
getting to a fleet of 355.
    Admiral Richardson. I will tell you what, the capabilities 
on the Flight III DDG, its sensors, its weapons, the whole--it 
just has a battlespace control that is going to add a 
tremendous amount of capability, not only as a single ship, but 
in concert with the rest of the ships and the strike group and 
the fleet. And so as we think about distributing maritime 
operations, that type of capability is key. The fact that we 
are leveraging the learning curve that we have got already on 
the DDG 51 class and just modernizing that is also a benefit.
    And then we are looking for the next thing as well. Because 
with the Flight III, the DDG is about maxed out. Not a whole 
lot more room to expand beyond that. And so working with 
industry, just as the Secretary said, to bring them in early, 
to make sure we have as smooth a transition to the next large 
surface combatant.
    Mr. Courtney. Thank you.
    Mr. Byrne for 5 minutes.
    Mr. Byrne. Thank you, Mr. Chairman.
    Admiral Richardson and General Neller, I just want to say 
how much I appreciate your service to our country, and I want 
to tell you how much I appreciate your work with this committee 
and with me personally. It has been an honor, a pleasure to 
know you and to work with you, and we wish you the best of luck 
in the years to come.
    Mr. Secretary, you have been very gracious in all the time 
you spent with me as you have heard my worries about the small 
surface combatant program, and I am very pleased to see that we 
are making the shift to the frigate in this year's budget. So I 
know you have worked very hard on that, and thank you.
    I do continue to be concerned about the price point, 
because we now, on the initial ship, are up to almost $1.3 
billion with additional requirements. And so what I worry about 
is, you know, when we start getting these defense--these 
acquisition programs, the costs up like this, we tend to cut 
back on the numbers. So are we still aiming for $800 million on 
the follow-on ships and still trying to get to 20?
    Secretary Spencer. That is correct, Congressman. If 
anything--and I share your consternation. We have, as you know, 
five robust platforms that we are going to be entertaining, 
which makes this probably one of the most competitive platform 
acquisition programs that we will have. So we are quite excited 
about that. We look at the learning curves on those hulls that 
are already out there, and they are very impressive.
    The reason I pause for a second is that I read the latest 
GAO [U.S. Government Accountability Office] report on the 
Columbia, and one of the things the Navy is criticized for is 
not--not estimating the costs in an appropriate manner, that we 
underestimated. I am hoping, and I am pretty confident, that 
the number that we are projecting here is the first ship 
number, and it is going to be a conservative number, but we are 
definitely driving for the $800 million number.
    Mr. Byrne. Well, good, because I don't think you are going 
to get to 20 if you jump it up much higher than 800. You know 
all the competition for the other ships that we are trying to 
construct. So please forgive me if I don't continue to bring 
that up. It is just a continued concern of mine.
    Secretary Spencer. Please do.
    Mr. Byrne. Yes, I will. I will.
    General Neller, I had the privilege of leading the past 
group that went out to RIMPAC [Rim of the Pacific Exercise] 
last summer, and we were looking forward to getting under way 
on the Bonhomme Richard, but couldn't because it couldn't sail. 
We were also supposed to have the Boxer out there, but it 
couldn't participate. I am concerned about the amphibious 
program and our readiness. Do I have a legitimate concern? Do 
you have a concern about where we are on the amphib program?
    General Neller. We worked really hard with the Navy on the 
maintenance processes for amphib ships, and there is a--I 
believe the Navy has a backlog on a number of platforms for 
maintenance. So, yes, we are concerned about the availability 
of these platforms. This is not something that happened 
overnight. And we have been funding maintenance and readiness 
at a higher level. So we are hoping to see a better 
availability of these ships, but it is something that the CNO 
and I talk about, and he is tracking all this, as we are, 
making sure that the platforms we do have are available and 
they have the mods [modifications] and other changes they need. 
So we are not where we want to be, but we are continuing to 
work on it.
    Mr. Byrne. Thank you, General.
    Admiral, we continue to hear more and more about China and 
its naval operations, and presently around an island that is in 
dispute or--an island or rock--that is in dispute between it 
and the Philippines. Can you enlighten us where we are on that.
    Admiral Richardson. Sir, I think the word for--the one word 
I would use to characterize that is consistency. Our actions 
are consistent with our words in that that is a very important 
body of water, the South China Sea. And about one-third of the 
world's trade goes through there, and so we have got tremendous 
national interest in making sure that that trade flows freely 
through there unthreatened.
    We have been consistently present in that part of the world 
for 70 years, and we are going to remain consistently present 
there, and continue to advocate with our allies for free and 
open seas so that we fly, sail, and operate wherever 
international law allows.
    Mr. Byrne. And I assume that the shipbuilding plan that you 
have submitted is your best estimate about what you are going 
to need short term, near term, and long term, to keep up with 
or stay ahead of the threat from the Chinese?
    Admiral Richardson. It is exactly--addresses that strategy 
in every single hull. Right? It is a very strategically 
informed budget. And so all of--you know, the entire budget 
really is leaning in that direction, yes, sir.
    Mr. Byrne. Well, I thank you both--all three of you for 
what you do. I think it is tremendously important to the 
defense of the country. And I certainly want to give my full 
support to all of your efforts.
    Thank you, Mr. Chairman. I yield back.
    Mr. Courtney. Thank you, Mr. Byrne.
    Mr. Norcross.
    Mr. Norcross. Thank you, Chairman.
    And I want to echo the previous statements of thanking all 
of you for your service, and wish you well as you move on in 
life. I know you won't go far.
    Secretary Spencer and Admiral Richardson, according to 
naval aviation long-term tactical aircraft inventory plans, 50/
50 split is the percentage you are looking at between fourth- 
and fifth-generation fighters with the F-35C. The rationale 
between that 50/50 split across the entire globe, can you 
explain to us why you came up with the 50/50 split?
    Secretary Spencer. I will take a first cut at that, 
Congressman, and then offer the CNO to dive in also.
    In the job here that I wear, wearing the title 10 hat, it 
is portfolio management. Obviously, I would love to have every 
single thing that I asked for, but I can't have it. When it 
comes to bringing the F-35 into the Navy fight, this is the 
most efficient and effective way that we believe we could do 
it, which is basically to feather in the F-35 Charlie, 
augmented by the Super Hornets, and that is both Super Hornet 
new and the SLEP [service life extension program] program for 
the Super Hornet. So eventually we are getting to 100 percent 
fifth gen.
    We also have to figure in that we have the next-generation 
fighter, which we are now just beginning to do some analysis 
on, and that should be brought into the argument also.
    Mr. Norcross. After the F-35, you are actually doing that 
analysis 30 years ahead or 20 years?
    Secretary Spencer. Yes, we are starting it now.
    Mr. Norcross. Admiral Richardson.
    Admiral Richardson. Sir, I would just echo what the 
Secretary said. I think he captured it completely. If you look 
at the capability of the future air wing, it is going to 
include that mixture of fourth and fifth gen, each of which 
contributes uniquely to the airpower of that air wing.
    And then, of course, we are bringing in the unmanned tanker 
as well, so that we extend the range of that air wing and allow 
strike fighter aircraft to do the strike fighter mission 
instead of the tanking mission. And so it is really, you know, 
a whole air wing approach as we move forward.
    Mr. Norcross. So as you move forward to 2030 and you start 
dealing with the near-peer competitors, particularly in the 
East China Sea, do you see that ratio changing over the course 
of the next 20 years?
    Admiral Richardson. We are going to stick with what we have 
got right now, sir, and we will learn as we go forward. And 
then as the Secretary said, we are already looking at what it 
is going to take to maintain air dominance, even beyond fifth 
generation, and so we have got to start introducing that 
capability in the 2030s, and so it is time to get thinking 
about that now.
    Mr. Norcross. Thank you. I yield back.
    Mr. Courtney. Thank you, Mr. Norcross.
    Mr. Gallagher.
    Mr. Gallagher. Thank you.
    Secretary Spencer, your Navy cyber review, I believe, ID'd 
[identified] contractors as a huge vulnerability, really, the 
soft underbelly of Navy cybersecurity. Just to follow up on 
what Representative Langevin talked about, could you please 
comment on the severity of the contractor threat? And if you 
would also address, I believe you are proposing a fifth 
assistant secretary for cybersecurity. The Navy already 
obviously has a CIO [chief information officer]. You have an 
OPNAV [Office of the Chief of Naval Operations] cybersecurity 
division run by a two-star. So the proposal, I think, begs the 
question, what are those existing positions not empowered to do 
that you believe an assistant secretary for cyber would be able 
to do?
    Secretary Spencer. To answer your two questions, 
Congressman, yes, one of the most vulnerable Achilles' heels we 
have is our supplier base, and that--I think you appreciate 
that ranges from Fortune 100 companies, Fortune 50 companies, 
on down to--I will use the term ``mom and pop,'' the small 
business world. We have to be able to encompass and provide 
them avenues to protect our data.
    One reason that we are going to the cloud, the cloud allows 
that ability to provide an avenue for some smaller organization 
to be encrypted, to be protected, without encumbering a lot of 
costs on them. That is one of the things we are after.
    When it comes to the fifth assistant secretary, that will 
be the compilation of what we have in the organization already 
at the secretariat level. And to remind you, secretariat level 
is more a policy performer, and then the services themselves 
are the tactical and actors. So we will be a support mechanism 
for that, providing the structure and the gray matter needed to 
actually put the policy out there and assist in the creation of 
the infrastructure around it.
    Mr. Gallagher. And just--yes, Admiral?
    Admiral Richardson. If I could, sir, I would just add on 
that we have taken some very near-term actions already, even 
before the cybersecurity study, in terms of tightening up the 
contractual relationship with a lot of those partners in the 
defense industrial base. And so encrypting their data at rest 
and in transit, two-person--two-method authentication, 
increasing the transparency into their systems, the oversight 
of those systems, the response of those systems, and so we are 
moving out with urgency here.
    Mr. Gallagher. And, Admiral Richardson, if I could, the 
National Defense Strategy obviously has this massive conceptual 
shift towards prioritizing great power competition: China, 
China, China, and then Russia a distant second. But contained 
within that is this further conceptual shift away from reliance 
primarily on deterrence by punishment to doing more of 
deterrence by denial. How has that changed--sort of that big 
conceptual shift in that document changed the way the Navy is 
doing business, and what role will the future frigate play in 
conducting deterrence by denial in the Indo-Pacific region?
    Admiral Richardson. Well, I would say that our conceptual 
approach to that, articulated in the Navy strategy, the design 
for maintaining maritime operations, is distributed maritime 
operations. And so the fundamental thesis of this is that we 
are going to complicate any adversary's targeting problem by 
distributing the platforms and the fleet, keeping that very 
distributed and dynamic, but having a network that would allow 
us to mass effects, whether--payloads, if you will, kinetic and 
nonkinetic.
    I will tell you what, the frigate is going to contribute 
tremendously. It is going to pack a wallop, and it is going to 
allow us to get out there with a number of platforms and 
exercise this distributed maritime operations concept.
    Mr. Gallagher. And then to follow up on that, General 
Neller, can you walk us through how you think U.S. withdrawal 
from the INF [Intermediate-Range Nuclear Forces] Treaty might 
affect your role in that fight and specifically your EABO 
[Expeditionary Advanced Base Operations] concepts?
    General Neller. If we have the ability to deliver surface 
fires beyond the range that we are restricted by in INF, that 
will put us in a better position vis-a-vis other adversaries 
out there. So in the EABO, Expeditionary Advanced Base Ops, we 
believe, in conjunction with fleet operations and a naval 
campaign, that we can use a land force to help control the 
maritime space. And so the longer range we have, the better 
opportunity we have to control greater pieces of the maritime 
space.
    So if you look at the critical geography on the globe, 
whether they are maritime choke points, you know, and they are 
obviously where they are, if you control those and you have the 
ability to reach out and dominate the sea space from the land 
in support of the fleet, and from the air, I think it gives you 
an operational advantage, and that is what we are going to try 
to do with these capabilities that we are going to develop. So 
we are lockstep with a lot of the weaponry, development that 
the Army's doing, what the Navy's doing, with long-range anti-
ship missiles and other things. There is capabilities out 
there, and we hope to field those and make that part of the 
naval campaign.
    Mr. Gallagher. Thank you. I am out of time. But I think it 
also means we are going to have to teach a generation of young 
Marines what sea denial and sea control means and refresh that.
    General Neller. I think we will be able to do that, because 
historically, the seizure and securing of advanced naval bases 
in support of the naval campaign is what we have historically 
done. We haven't done it the last 17 years, as you rightly 
acknowledge and you know yourself, but I think that is going to 
be part of the education and training process, and we are 
moving out on that.
    Mr. Gallagher. Absolutely. And thank you both for your 
service.
    Mr. Courtney. Thank you, Mr. Gallagher.
    Congresswoman Hill.
    Ms. Hill. Thank you. And thank you all for being here. 
Great to see you.
    Admiral Richardson, I hear a lot of talk about a bigger 
Navy and the need for the 355 ships, but I wanted to hear more 
about the creating a ready Navy, what is being done differently 
after the McCain and Fitzgerald incidents and, you know, to 
make sure that our destroyers are getting the maintenance they 
need. Can you talk a little bit about that?
    Admiral Richardson. Sure, yes, ma'am. First and foremost, 
with respect to the 7th Fleet, which is where we had our 
trouble, the most important thing we have done is just return 
schedule discipline to the force. Admiral Sawyer out there, the 
7th Fleet commander, Admiral Aquilino, the Pacific Fleet 
commander, are supporting this with vigor.
    And so what this really means practically is that we don't 
send a warship out to do a mission until it has been trained 
and certified to do that mission and we have provided adequate 
time and oversight to make sure that they are ready to go.
    Backing that up, we stood up a new command out there in 
Japan, to make sure that there is an onsite advocate for force 
generation so that we get to that level of readiness, and that 
is stood up and working very well.
    And then as we go into deeper matters, we have adjusted the 
training profile for each of those ships. We are moving 
simulators, high-end simulators out to each of the fleet 
concentration areas, especially and including our forward-
deployed naval forces, and then we have changed the career path 
for surface warfare officers to make sure that they get better 
and more training as they go through their career.
    Ms. Hill. So do you feel like the maintenance needs are 
being met for the destroyers or----
    Admiral Richardson. I will tell you, maintenance has been a 
topic of conversation here at the hearing all morning, and it 
is probably our remaining, most complicated Gordian knot to 
untie. And so we have got everything leaning into this. We are 
using the same practices that we used to improve in aircraft 
maintenance, going out into the private sector to look at best 
practices. We are starting to use a very data-centric approach. 
There has been some good progress made in maintenance, but we 
have still got a ways to go.
    Ms. Hill. Thank you. Okay. So then this is in a different 
direction, but my brother is enlisted already. He is scheduled 
to go out for boot at the end of May, so very excited about 
that. But I was hoping you could talk about what the Navy's 
doing to hit its future recruitment targets. I know you 
mentioned earlier that there is as many as a 6,500-billet 
shortage. So anything you can talk about there?
    Admiral Richardson. I will tell you what, ma'am, knock on 
wood, but both the Commandant and I have enjoyed the fact that 
we have hit our recruiting targets for probably the last 12 
years, and on a month-by-month basis. And I think that has a 
lot to do with the same factors that you are seeing in your 
family, in terms of what draws our Nation's young people to the 
service. It is as competitive a space as I have got anywhere, 
is the competition for talent.
    The recruiting team is doing great work. We are using some 
very new techniques, kind of web-based approaches to this. It 
is part of our transformation of our personnel and pay system. 
And that is--that is yielding some pretty good results. I will 
tell you what, also, once you arrive at boot camp, it is a 
completely different scenario. You are going to learn 
resilience. You are going to learn so many skills that we have 
actually made it tougher, but we have done it in a way that we 
are actually retaining more people. The graduation rate is 
higher, even after we have made those adjustments, because we 
are teaching people how to manage that stress in a much more 
effective way.
    And then finally, we have to stay true to our values, 
which, I think, is the thing that attracts our young people 
more than anything else.
    Ms. Hill. So if the recruitment targets are being met, 
where are those shortages coming from, the 6,500 shortages?
    Admiral Richardson. This is really a leftover, if you will, 
from a shortage that we experienced in recruiting in 2016. And 
so as you think about that divot moving through time, it is 
going to be with us until it passes through the senior ranks. 
But that is where we are. The most recent recruiting numbers 
have been much better. And we are going to see this recover, I 
think, in the next year or two.
    Ms. Hill. Great. Thank you very much.
    Mr. Courtney. Thank you, Ms. Hill.
    And, Admiral, I was just out at Great Lakes Training Center 
and saw the transformation that Admiral Bernacchi has brought 
out there, and everything you described is absolutely true. The 
morale and enthusiasm was off the chart, and he was making it 
tougher.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman.
    General, Admiral, I am going to be sorry to see you retire. 
For General Neller, I understand you are going out to Las Vegas 
and with Buck Bedard open up a casino. Is that correct?
    General Neller. No, Congressman, that is not correct.
    Mr. Cook. Just you, huh?
    Anyway, I did want to talk about amphibious ships and the 
fact that two of them were cut out of the budget, correct me if 
I'm wrong, LPDs [amphibious transport dock ships]. How much of 
an impact is that going to have on commitments?
    General Neller. There was LPD Flight II and an LHA 
[amphibious assault ship], which were moved to the right in 
this--in the program. So we have discussed--and there was 
advanced procurement money provided by the Congress for both of 
those platforms. And so in discussions yesterday and with other 
hearings, we believe, with incremental funding, if that was 
permitted by the Congress, that we could probably bring those 
back to the left.
    Are they important? Yes. We still have a requirement for 38 
amphib ships, we believe 12 big decks and 26 LPD similar hull 
forms. And so we would like to get to 38 ships. And so--but 
there is other competing requirements, I understand that. 
Obviously, we believe that amphibs obviously are critically 
important to Marines, but submarines are important to Marines, 
too, because if we don't have submarines, we are not going to 
get to the fight. And so I have to be, as a member of the Joint 
Chiefs, I have to be operationally intellectually honest about 
that. But as a Marine, we need both, more platforms, and we 
need more availability from the platforms we have.
    So I believe if we work with the Congress on being able to 
spend this advanced procurement with some incremental funding, 
I think we can move for sure the LPD Flight II hull form, get 
it sooner than where it is in the program.
    Admiral Richardson. Sir, if I could just pile on to my 
partner here, is we see it the exact same way. Even with these 
adjustments, we are going to have 36 amphibious ships at the 
end of the 5-year program, in fiscal year 2024, against a 
requirement for 38. So we are taking this very seriously.
    With that incremental funding authority, we could get 
started on that LPD as soon as we get those authorities and 
maybe even do better than that.
    Mr. Cook. I wanted to address something that is often, I 
think, forgotten in the budget, and that is the Mountain 
Warfare Training Center. And you know this thing has been 
around since the fifties, a reaction to the Korean war. I think 
it is a great training area. I was there many, many years ago, 
and there is a certain part of my exterior that still hasn't 
thawed out since the sixties, I guess I was there.
    The problem--I was there recently and very, very concerned 
about the fire danger. As you know, you can still see the red 
lines where the planes--it was very, very close. And the--the 
other problem is they had a great exercise up there, but I was 
concerned with the helicopters and everything else, because 
there is no security for those things. You got to have troops 
out there, that road that they have, that goes--it is like 50 
miles away--or excuse me, it is like maybe 50, 100 meters away 
from where the helicopters were set for the evening during that 
exercise.
    So I am just hoping that we can work with the Park Service, 
the Forestry Service, and straighten out that road, whether we 
have to get money or what have you. And if you could--I am 
going to be studying it more and more, and any suggestions you 
have, because it has been like that for too long. And sooner or 
later, we are going to have a problem there with fires or 
interlopers with some very expensive equipment. And they--great 
exercise, I thought it was fantastic. But any comments on that? 
I don't have----
    General Neller. Congressman, I was just up there and they 
briefed me on that northern part of the training area they want 
to open up and the particular road you are referring to. So I 
will get back to you with whatever particular initiatives that 
we need, and maybe you can help us with the Park Service to be 
able to improve that road and be able to open up that training 
area, at least for maneuver, and also, so we can get into the 
training area from a different direction in case we have an 
issue that we need to address. But I will owe you that, and I 
will get back to you on that.
    Mr. Cook. I appreciate it. Thank you.
    I yield back.
    Mr. Courtney. Thank you, Mr. Cook.
    Congresswoman Luria.
    Mrs. Luria. Well, thank you, gentlemen, for being here 
today. One of the things that strikes me the most when I look 
at the budget is the changes year over year to a 30-year 
shipbuilding plan, and I am just trying to wrap my head around 
why there are so many changes in just 1 year. A few examples. 
In last year's 30-year shipbuilding plan, we had no cruiser 
decommissionings through 2023, this year we have 6; we had 3 
minesweeper decommissionings, now we have 11; we are going to 
decommission a carrier halfway through its 50-year life cycle; 
and the ship-to-shore connector, we have gone from 8 to zero.
    I would assume when we generate a 30-year shipbuilding 
plan, that it would be pretty consistent year over year in the 
nearest years, and the way I see a 20-year shipbuilding plan at 
this point, it is like the Navy's vision 2050. And if that 
vision changes every year, do we really have a clear vision?
    An example I will get from a hearing. In 2015, Rear Admiral 
Manazir, the air boss, said, and I quote, this force structure 
assessment--he was talking about the 2014 one--is sized for a 
U.S. Navy force to conduct a complex, multiphased campaign 
against a high-end adversary in one region and to deter or 
impose costs in another region. This force is designed to do 
that all the way to 2030.
    So that force structure was 308. The next year in the new 
force structure assessment, we said it was 355. And as we know, 
we are pending a new force structure assessment which you have 
stated is going to even have a higher number. So why are there 
so many changes year over year? And do we really have a long-
term vision towards 2050 for the Navy?
    Admiral Richardson. Ma'am, I think the answer to both of 
those questions is, yes, we have a long-term vision. What has 
happened since 2016, I think, is indicative of just exactly how 
fast and quickly our--both the security environment is changing 
and also the technology landscape is changing. So each one of 
those platforms that you mentioned has its own justification.
    We are going to continue to assess the cruisers. We are 
going to not propose them for life extension, but we are going 
to take this year and study that to see if it is a good return 
on the taxpayers' investment, given the warfighting punch that 
they bring.
    With respect to the mine countermeasure ships, we are going 
to----
    Mrs. Luria. So just in the interest of time, not to go line 
by line. It was really about a bigger vision, not----
    Admiral Richardson. We do have a vision, but we also are 
operating in an extremely dynamic security and technology 
environment. And so I think that is why we are doing the force 
structure assessment.
    I would just say that I don't think I have predicted it is 
going to be higher or lower. I really am letting that run----
    Mrs. Luria. Okay. Well, I will look forward to those 
results.
    So, Secretary Spencer, so one of the main things that 
concerns me is the continuous change and churn that we have 
within the Navy. In my own 20-year career, for example, the 
surface warfare training pipeline changed four times. Again, I 
think an indication of no real vision. And, you know, we did 
have the terrible collisions in the Pacific in 2017, and we are 
implementing corrective actions for that part of our training. 
But I see the same thing in this year's budget and shipbuilding 
plan, more change, more churn. And I understand that technology 
changes, our potential adversaries change, as do their 
capabilities, but what do you think about the fact that it 
appears to the outside observer that the Navy doesn't have a 
shipbuilding plan that can stand for more than 1 year without 
significant changes?
    Secretary Spencer. It doesn't bother me whatsoever, 
Congresswoman, because the fact of the matter is, we are 
adapting to the changes around us. The fact that we have 
accidents in the Pacific and we make a change to correct it, 
that is change; I don't think that is churn. I would hope that 
you would want me to be running at full speed, and when I run 
at full speed, I am going to adapt and adopt and experiment as 
much as I can.
    Mrs. Luria. Okay. So, Admiral Richardson, with regards to 
the OFRP [Optimized Fleet Response Plan], CVN 77 [USS George 
H.W. Bush aircraft carrier] recently entered Norfolk Naval 
Shipyard for a 28-month availability. Was 28 months ever part 
of the planned OFRP cycle?
    Admiral Richardson. Ma'am, it was originally in for a 16-
month. That is what it was planned for.
    Mrs. Luria. Okay. And so Ike also finished their 
maintenance availability a year late recently, and they were 
the first to go through an OFRP cycle. Is that correct?
    Admiral Richardson. They were one of the first. But I will 
tell you that this 28 is really a recognition that there is 
some emergent material issues that we have got to do that were 
not part of the original plan, and so we are recognizing that.
    Mrs. Luria. Are you able to consistently provide a two-
plus-three carrier presence over the FYDP [Future Years Defense 
Program]?
    Admiral Richardson. For the most part, yes. Sometimes 
maintenance prevents us from doing that, but we are certainly 
striving towards that by the end of the FYDP.
    Mrs. Luria. So is the OFRP producing the deployed presence 
that was envisioned and testified to this committee in 2015? 
Because at that time, in the same hearing that we are having 
now, everyone affirmed the minimum number of carriers to 
produce an acceptable level of risk is 11. So why in the 30-
year shipbuilding plan do you not maintain, as required by law, 
the 11 carriers?
    Admiral Richardson. I think that with respect to the Truman 
overhaul I think is where your question is centering, is we 
have to consider that as sort of a number of interrelated 
things. One is that we are biased towards naval power, and that 
that naval power may be maximized by some of these new 
technologies that are coming down right around the corner. The 
Harry S. Truman also delivers a tremendous amount of naval 
power. Resolving all that is being evaluated in this force 
structure assessment that you have referred to, as well as the 
combatant commanders updating their OPLANs. When we see those 
OPLANs and that assessment done, we are in a perfect position 
to respond to----
    Mrs. Luria. As I see, we are out of time.
    Mr. Courtney. Thank you. Okay. I think our time's run out. 
So, thank you, Congresswoman.
    Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman.
    Secretary Spencer, my constituents in Pensacola love their 
Blue Angels. I am hopeful that your budget fully supports the 
Blue Angels.
    Secretary Spencer. It does this time, sir, yes.
    Mr. Gaetz. And would you comment about the role that the 
Blue Angels play and how important they are in the overall 
Navy?
    Secretary Spencer. Blue Angels are one of our key 
recruiting tools for the United States Navy. The Blue Angels, 
in concert with our TACDEMO [Tactical Demonstration] legacy 
flights, really are one of the go-getters when we go out to 
airshows to help the recruiting effort.
    Mr. Gaetz. We are proud of them.
    I would have to say, Admiral Richardson, I am a little less 
proud of how we have dealt with some of these physiological 
episodes and how we have dealt with some of the training 
deaths. Would you comment on how the budget we have now leans 
into a solution set so that we don't continue to have those, 
particularly on the [T-45] Goshawk.
    Admiral Richardson. Yeah. I think that--first, I want to 
come and brief you, because I think when you get the details, 
you would be proud that we have attacked this from a 
multidisciplinary approach, not only in the Navy, but we have 
employed NASA [National Aeronautics and Space Administration], 
the private industry, and just about everybody who can help us 
here. We have employed the diving community to help us 
understand this better.
    It is about as complicated a problem as you can describe, 
the interface between a high-performance aircraft and a human 
body, but we are stepping through in a very disciplined way. We 
have seen, in general, the trend of those physiological 
episodes go down, in some cases almost being eliminated from 
certain type/model/series, and we look forward to making future 
progress.
    Mr. Gaetz. I look forward to that briefing. One of the 
concerns I have is that when I visited NAS [Naval Air Station] 
Pensacola, only one of the training simulators had a hypoxia-
enabled OBOG [On-Board Oxygen Generation] system. And what I 
heard from the leadership and the students there is that if all 
the students know that there is but one simulator that has the 
hypoxia simulation, then it misses the point of training 
students how to diagnose a physiological episode and then deal 
with their emergency protocols.
    Is there any thought given to how we train those students 
to react to those symptoms? And is it your view that maybe 
having more than one trainer with the hypoxia-enabled OBOG 
system might assist in that training?
    Admiral Richardson. I will say that a consistent approach 
to us responding to this is to increase the training across the 
entire naval aviation enterprise in terms of how pilots 
recognize and respond to a potential physiological episode in 
the air. I am not sure exactly how the trainer in Florida 
relates to that----
    Mr. Gaetz. Well, no. You would understand, though, that if 
there is sort of one system with that feature and the other 
systems don't have that feature, then you would expect that 
feature in the system that you knew had it and not in the 
systems that didn't. Just as sort of a commonsense reaction 
from some of the students. So I hope you will take that into 
consideration as the Navy continues to address the problem.
    I wanted to shift gears and follow up on Mr. Langevin's 
questions about climate change. Admiral Richardson, what 
elements in the budget that the Navy's presented would we look 
to to say that they acknowledge the challenges associated with 
climate change, that they lay out a strategy to deal with it?
    Admiral Richardson. Sir, thank you. I would point to our 
MILCON budget, first and foremost, and the guidance that we 
have put out that anything new that is built has to be 
considerate of potential sea-level rises and other factors of 
climate change. We are also working very closely, not just, you 
know, isolating to the on-base problem, but working closely 
with local communities. Because typically, we are right there 
with our neighbors in places like San Diego, Norfolk in 
particular, and other places.
    Mr. Gaetz. Yeah.
    Admiral Richardson. So it is the MILCON budget where I 
would point you.
    Mr. Gaetz. Appreciate that on basing. But for years, I have 
heard my colleague, Mr. Garamendi, mention the impacts of 
climate change on the permissibility of the environment in the 
Arctic. We have heard chiefs from the Air Force and the Army 
testify that climate change impacts the permissibility of 
various environments, and they specifically referenced the 
Arctic. Do you similarly hold that view, or is there a 
different view you hold?
    Admiral Richardson. No, I think we probably are first among 
equals in terms of the impact. Sea lanes are open now that 
weren't open before. Continental shelves are exposed now that 
weren't open before. The Arctic ice cap is as small as it has 
been in our lifetime. That is why we are invested up there. We 
took the Harry S. Truman strike group north of the Arctic 
Circle last year for the first time since 1991. We have had a 
consistent submarine program, including ICEX [Ice Exercise] 
last year, where we surfaced two U.S. submarines and a British 
submarine through the ice. We have a robust program of 
exercises that we have been conducting and plan to continue to 
conduct in the Arctic to make sure that we can operate up 
there.
    Mr. Gaetz. Is it fair to say, then, that you are having to 
react to the impacts of climate change in real time as they 
impact environments that our adversaries are interested in?
    Admiral Richardson. Absolutely fair.
    Mr. Gaetz. Thank you, Mr. Chairman. Yield back.
    Mr. Courtney. Thank you, Mr. Gaetz.
    Mr. Garamendi.
    Mr. Garamendi. Mr. Gaetz, thank you for raising that issue, 
it saves me the time, and we do pay attention to polar security 
cutters. Thank you.
    Secretary Spencer, thank you for sharing information and 
time.
    Admiral Richardson, the same, you have been very 
forthcoming. I appreciate it.
    General Neller, I think you and I--not you, but I will be 
visiting your folks at Lejeune a little later this afternoon, 
in fact, shortly after this question ends. With regard to Camp 
Lejeune, we have had a full discussion. We will have more as a 
result of the visit that we will--Mr. Lamborn and I will be 
making today.
    General Neller, you have spoken to the issue of the 
deployment of your troops to the border wall and the readiness 
issues that have occurred as a result of that. I would 
appreciate, later, more information about specificity, 
specifically what you were referring to, both----
    Now, with regard to the issue that Mr. Wilson raised with 
regard to sealift, we need to revisit the current NDAA 
[National Defense Authorization Act], as we prepare for the 
next NDAA, and be really drilling down on what ships are going 
to be needed sooner than later. You mentioned this, Admiral 
Richardson. A particular concern of mine is information that 
was given to us with regard to specialty ships that service 
other ships and that they seem to be aging out sooner than 
later. So I would like to have more full information on that 
and try to design that into the current NDAA and the timing 
issues surrounding that. So if you could give that information 
to us.
    Finally, with regard to MILCON, there is no way that we can 
avoid the fact that $6- to $8 billion is likely to be taken out 
of the current MILCON programs if the President is successful 
with his program. We need to know soon, like now, what programs 
are at risk, given the President's desire to take that money 
and spend it on the border wall. So for all three of you, if 
you could immediately, like when we return after the Easter 
recess, have that information in hand.
    We do know that a billion dollars has already been taken 
out of the defense budget to be used on four--three contracts. 
The legality of that is questionable, but nonetheless, that 
appears to have happened. We will be looking at that. So a 
billion dollars is already gone.
    So I want to have very specific information, upon our 
return, as to what projects are at risk. And I think it is a 
fool's errand to assume that that money will be replaced in the 
coming appropriations. So that is money that is likely not to 
be available in the future, and we need to know the impact of 
it. With that, I yield back.
    Mr. Courtney [presiding]. Thank you, Mr. Garamendi.
    Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Chairman.
    And I specifically want to thank both of your families, 
Admiral, General, for--you know, thank you--it is probably safe 
to say you are both in your dream jobs right now but your 
families have borne the brunt of your service, and I always 
want to keep the families in mind.
    I want to talk a bit about the submarine threat, Admiral 
Richardson. The evolution of the Chinese and Russian, my 
understanding in simple terms, Chinese are really ramping up 
production in numbers, the Russians in terms of approaching 
parity in quality.
    Can you share with us some of the successes you have had in 
tracking the recent out-of-area submarine deployments by the 
Chinese and the Russians? I understand that the P-8 has been 
instrumental, its sonobuoy processing capabilities are critical 
to that success. And then if you could talk to me about 
sonobuoys in your funded and in your unfunded priorities.
    Admiral Richardson. Sir, I mean, what I think I need to do 
is come back and give you a classified brief on that. It is 
almost impossible to talk about that in an unclassified forum.
    Mr. Waltz. Fair enough.
    Admiral Richardson. But I will say that, in this venue, 
that ASW [anti-submarine warfare] has really become a team 
sport. It involves not only submarines but also surface ships, 
their towed array sonars, their radars. And then as you 
mentioned, the P-8s and their sonobuoys. It all works together 
as a team. And we are getting more and more participation with 
our allies who can keep with us at that high end as well.
    With respect to sonobuoys, it is like every other--it is 
like a piece of ordnance. You know, you expend it and it is 
done, and you need to kind of keep replenishing that. And as we 
continue to ramp up our capability, we are finding that we need 
to replace those sonobuoys at an increasing rate, and so our 
budget supports that.
    Mr. Waltz. Great. In terms of--again, sticking to the 
Chinese and where they are going, a number of studies that I 
have read, they are producing--and setting the qualitative 
parts of this aside, we are looking at two to three ships to 
one in terms of their production. I mean, that is one of the 
largest shipbuilding--they have one of the largest shipbuilding 
capabilities in the world by far. As you are looking at your 
studies and in your study on the force structure, isn't there 
kind of a quality to quantity in and of itself in looking at 
the high-low mix and looking at the cost savings of 
refurbishing frigates, in particular at a fraction of the cost? 
So if these trends continue, do you agree with the assessments 
that, quantitatively, the Chinese will be on parity by 2030 and 
qualitatively--actually, I would say quantitatively exceed, 
qualitatively approaching parity by 2030?
    Admiral Richardson. Well, certainly, they are the number 
one shipbuilder in the world, right? And so from a quantitative 
standpoint, it is, you know----
    Mr. Waltz. Maybe you can just add to your comment. You had 
mentioned some incentives that you are looking at increasing 
our shipbuilding, domestic shipbuilding capability.
    Admiral Richardson. I would be willing to participate in a 
discussion to do everything we can to incentivize and increase 
domestic shipbuilding for--I think it is a national strategic 
imperative. And so there is a number of things that we might be 
able to do. And, you know, I would look forward to the 
discussion, sir.
    And then with respect to the qualitative, I think we are 
going to continue to do our best to stay ahead, from a 
qualitative standpoint, from any other navy in the world.
    Secretary Spencer. Congressman, just to add some of that 
that is going to inform our discussions. Our acquisition and 
sustainment arm, through Secretary Geurts, is actually doing a 
what happens when the balloon goes up with industry? We are 
having a forum that read, you know, America's arsenal of the 
Freedom--the Freedom's Forge. It is that whole concept of what 
would happen to capacity and what could our suppliers expect to 
do if, in fact, we really surged the demand. That is happening 
the end of May. It is going to be interesting. We will let you 
know.
    Mr. Waltz. [Inaudible] new investments in modernizing the 
Reserve Fleet which is sitting around 40 to 45 years. How are 
we going to address that and how is the Navy--I mean, I 
understand it is not the sexy end of shipbuilding. But just 
assure this committee that you are taking that seriously.
    Secretary Spencer. Totally. This is square in my 
wheelhouse. Again, it comes to portfolio management. And I 
don't say that apologetically. That is how we are trying to 
balance this whole investment process, Congressman. The CNO 
gave you the overview.
    One of the things that I would love to plant as an ask is 
the ability to buy more foreign, used. Yes, we need to get our 
shipbuilding muscles back in shape. But in the immediacy, you 
have given me the ability to buy two and then go forward with 
CHAMPs [Common Hull Auxiliary Multi-mission Platforms], and 
then I can buy three more.
    I would like to have more of the ability to have X dollars 
in an account and go out to the marketplace and buy as much as 
I could with that money.
    Mr. Courtney. Great. Thank you, Mr. Waltz.
    And the MARAD [Maritime Administration] actually is going 
to be coming out with its maritime policy, which hasn't been 
updated since the 1930s. And we are certainly going to have a 
hearing at Seapower when that day comes, shortly, hopefully.
    Now I would like to recognize the ranking member on the 
Seapower Subcommittee, my friend Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Spencer, Admiral Richardson, General Neller, 
thank you so much for joining us. And, Admiral Richardson, 
General Neller, thanks so much for your leadership, for your 
vision, and for your direction in your tenures there as chiefs. 
We appreciate that tremendously. I think you have really moved 
the ball forward for our Nation's Navy and Marines Corps, and 
we appreciate that. Created a legacy for many years to come.
    General Neller, I want to build on some comments that you 
have made concerning the devastation at Camp Lejeune from 
Hurricane Florence. As you pointed out, significant impact 
there; $3.6 billion of damage, $2 billion going towards 
demolition and rebuilding of those buildings, $1.3 billion 
going to fixing existing buildings, and about $300,000 going to 
fix IT [information technology] systems and other repairs. So 
pretty significant.
    Your comment was this specifically. You said, if the Marine 
Corps had to fund that through its existing military 
construction budget, it would take that budget in its entirety 
for about 4 years. That is a tremendous impact.
    I want to get your perspective. Where does that leave not 
only Camp Lejeune operationally, but where does it leave the 
operational capability of II MEF [Marine Expeditionary Force] 
in its ability to respond to crises? Because, you know, we can 
look at buildings and those sorts of things and really just 
make it about bricks and mortar, or we can really talk about 
what does it do to affect operational capabilities. So could 
you give us that perspective on where things are with the 
Marines Corps?
    General Neller. Well, Congressman, I appreciate the 
question. Obviously, II MEF remains in operational capable 
headquarters in a command element and the Marines and their 
families that live and train and operate out of there are ready 
to go today. They are operating in a degraded environment, and 
we expect to do that when we forward deploy in an expeditionary 
scenario. We don't necessarily expect to do that when we are at 
home station.
    So over a period of time, I think it will--it could affect 
a lot of things. It could affect retention. It could affect our 
ability--some of the ranges and training areas have been 
degraded, the beach area and access to the beach. You know, the 
shoreline on the east coast is changing over time because of 
all the storms we have had. So it affects our ability to use 
that beach, because that is a training beach. So some of the 
range areas, I think, are back in business, because we had to 
clear some areas.
    So the impact on the New River and the Cherry Point side, 
you are operating in hangars where the office spaces and the 
planning spaces are degraded. And so, you know, we expect our 
folks, when they forward deploy, to operate in austere 
conditions. We don't necessarily expect them to operate in that 
environment when they're at home station.
    So they are willing to put up with it for a while if they 
know there is a remedy coming, and we need to be able to offer 
them that remedy. This is not just an All-Volunteer Force. It 
is an all-recruited and all-retained force, and we need to 
provide them some level of capability at home station. It 
doesn't have to be perfect, but it has got to be better than 
what we got down at Lejeune right now.
    Mr. Wittman. Very good. Thank you, General Neller.
    Secretary Spencer, I wanted to get your perspective on some 
comments that have been made by members of this committee with 
some concerns about what has happened recently. Their comments 
have been about taking away reprogramming authority. And as we 
know, reprogramming authority gives some flexibility, and we 
were just talking about the impact of the storms on Camp 
Lejeune, on Tyndall Air Force Base. So I wanted to get your 
perspective.
    How would you see the impact in your role and your 
capability there in making the necessary adjustments for a 
Navy-Marine Corps team if that reprogramming authority was 
completely taken away from you?
    Secretary Spencer. Congressman, as I know you appreciate, 
because we walked through this before, when we assemble the 
budget, we try to make it as tight and as focused as possible. 
But in the ever-changing world that we deal with, there is 
continual adjustments that have to be made, whether it be the 
purchase of armaments, whether it be maintenance, which is one 
of my biggest reprogramming drivers. It would be devastating to 
lose the reprogramming capability, sir.
    Mr. Wittman. Gotcha. Very good.
    Admiral Richardson, I wanted to build a little bit on your 
comments on the fiscal year 2020 budget and how your focus is 
on preserving the industrial base. I think that is absolutely 
critical. But if you look at that, you see that there are no 
requests for additional construction for amphibious ships. 
Ship-to-shore connectors were taken out; we heard that referred 
to earlier. CVN 75 refueling.
    So the question becomes, if we are really about maintaining 
the industrial base as well as building that capacity, it does 
seem to be somewhat of a contradiction with those missing 
elements of what is in the budget request to your efforts to 
say that, you know, we want to make sure that we are 
multipurposing in this effort to assure we have industrial 
capacity and capability at the same time that we are rebuilding 
the proper components of the fleet. So I just want to get your 
perspective on that.
    Mr. Courtney. And if you could make it sort of a shortened 
version, that would be----
    Admiral Richardson. Abbreviated version.
    Sir, I mean, we build 12 ships over--in this budget, 55 
over the FYDP. With some authorities, we could get started on 
the amphib ship and bring it back in and get started on that as 
quickly as we can. And so I think we do show a commitment there 
to shipbuilding and the national treasure that is the 
shipbuilding industrial base.
    Mr. Wittman. Thank you, Mr. Chairman.
    Mr. Courtney. Thank you, Mr. Wittman. Thank you to the 
witnesses for your endurance.
    There actually is a request for a couple follow-up 
questions by some of the members. And, again, at this point, I 
just want to yield to Mr. Thornberry, ranking member.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary and Admiral, Mrs. Luria kind of started down 
this road, but nobody has really pressed you all on why the 
administration request is walking away from 25 years left of a 
carrier life. So I think we need to hear that explanation. And 
then the part B of that is if we--and I think the prevailing 
opinion in this committee is to refuel the carrier. Okay. If 
that is our decision, then what are you not able to do in the 
future given the budgets that you assume are coming?
    Secretary Spencer. Congressman, let me walk you through the 
thought process. When we sat down to create the budget, then-
Deputy Secretary Shanahan really had us go through what I 
consider a very healthy assessment of where we are. And if you 
look at United States Navy, which probably has the largest 
installed base of capital assets, there are three buckets that 
we have, which is our legacy systems; the modernization of our 
legacy systems; and then the funding of what I am going to call 
R&D [research and development] and/or force 2.0, those weapons 
that are being developed now and those to come that we have to 
invest in.
    If we look at the two-carrier buy combined with the 
nonrefueling of the Truman, the thought process was as follows. 
One, and I think this is lost in some of the conversations, the 
Ford-class carrier is not a Nimitz in any way. It has a 30 
percent higher projection of sortie launch, 25 percent fewer 
people to man it. We are expecting maintenance to be less. That 
will be proven out.
    If that is the case, we are modernizing the fleet. I look 
at, again, outside the wire, anywhere from oil industry to 
aviation to trucking. When, in fact, a new platform is 
presented to anyone who is modernizing in the 20 percent 
improvement range, people abandon assets to make the case to 
move towards more effective, more efficient, in our case, more 
lethal platforms.
    So this is not a one-to-one trade. This is modernizing the 
fleet with three platforms right off the bat that are more 
lethal. That was the thought process behind the Truman.
    Walking away from 25 years, abandoning an asset is not an 
easy decision. In the where we are right now in the actual 
process, we can still come back to address it. The Joint Chiefs 
are doing studies, so are we, as far as requirement goes.
    But as far as a modernization argument, we believed it was 
a way to put the statement forward that we can take those 
moneys and invest in force 2.0, whether that be more 
submarines, whether that be advanced systems, whether that be 
future weapons that we don't have yet that we have to invest 
in.
    Mr. Thornberry. We are obviously going to have a fair 
number of Nimitz-class carriers out in--on the seas. So I take 
your point. A new carrier is better than an old carrier, but an 
old carrier has substantial value, don't you think?
    Secretary Spencer. It has value, sir, but the business case 
is to what investment to what I get on the other side of 
investing in new weapons.
    Mr. Thornberry. Okay. And, Admiral, I would appreciate your 
comments. But also, the second part of my question is, if we 
disagree and we say you are going to refuel the carrier, then 
what budget implications does that have for you all in the 
coming years?
    Admiral Richardson. Sir, I will just echo what the 
Secretary said, that, one, the budget submission is about 
addressing the strategic priorities, which place a great 
responsibility on maximizing naval power and how we do that 
going forward. First of all, the investment in the Ford class, 
I think, to me, says that the aircraft carrier continues to be 
a relevant part of delivering naval power into the future. So 
there has been a lot of conversations about the vulnerability 
of the aircraft carrier, et cetera. A competently run aircraft 
carrier in a distributed maritime operations environment is a 
very lethal platform. And it is not the carrier itself, 
although this carrier is much better than the other. It is 
actually--innovation takes place on the air wing, and that is 
the striking power of the aircraft carrier.
    With respect to the balance between the Nimitz class and 
new technology, I think that is why we have to study this, 
which is why we have these studies going on in parallel to 
this. And also the industrial base, which has been mentioned a 
number of times. What is the impact on the industrial base of 
these decisions?
    And so it is about that balance, just as the Secretary 
articulated. Whether we move forward and invest in some of 
these technologies or whether we deliver on, you know, a proven 
platform that will deliver new technologies through its air 
wing. And so I think we are in a position that, wherever those 
studies take us in parallel with this decision, we can respond.
    If you were to restore the overhaul of the carrier, then we 
would just adjust our investments into some of those other 
parts of the budget. I think if it was consistent with the 
logic, we would draw off of some of that new technology 
investment. It would be a considerable amount remaining, and we 
will look for other less lethal places to find that money.
    Mr. Thornberry. Okay. I would just say, my sense is we 
ought to be having those conversations. And I understand your 
point. But if that is the way it goes, then it may have 
implications that we need to talk about.
    Thank you, Mr. Chairman. I yield back.
    Mr. Courtney. Thank you, Mr. Thornberry.
    So, again, just kind of get situational awareness here. We 
have got two members who have follow-up questions. We have 
already had one pass through. But we have been joined by Mr. 
Banks who, again, was not able to be here for his first round 
of questioning.
    So, Mr. Banks, for 5 minutes.
    Mr. Banks. Thank you, Mr. Chairman.
    Secretary Spencer, I recently introduced a piece of 
legislation to create military education savings accounts for 
military families. I don't know about you, but I have heard 
from so many military families and our men and women in uniform 
who go through that difficult process of moving from one 
installation to another, having their children placed in a good 
school in one place but finding poor education options when 
they move to a new location.
    I wonder, do you hear those same complaints from families? 
There was a recent military time study that suggested that 
nearly half of our service members have either left the service 
or thought about leaving the service because of poor education 
options for their children. I don't know if you could have any 
remarks about that.
    Secretary Spencer. Congressman, yes. The way that I hear it 
is the inconsistency of the education available to those that 
are transferred around. There is a lack of consistency.
    Mr. Banks. So you do hear from our sailors about the 
difficulty of that?
    Secretary Spencer. Yes.
    Mr. Banks. I understand that you have been in contact with 
the Department of Education about that--about the----
    Secretary Spencer. Yes, we have.
    Mr. Banks [continuing]. Education savings accounts? And is 
that a concept that appeals to you that you think would----
    Secretary Spencer. Appeals.
    Mr. Banks [continuing]. Appeal to our families, our 
military families across the country?
    Secretary Spencer. To those that are educated on it on a 
launch basis, yes.
    Mr. Banks. Okay. I appreciate your brevity. But is there a 
good way to--with your business experience, is there a good way 
to create a path toward creating an option like that for our 
families through the DOD? And would the Department of Navy 
potentially be interested in a pilot program that--empowering 
the Navy to create----
    Secretary Spencer. I will turn it over to the CNO. But as 
far as a businessman wearing my title 10 hat, would love to see 
the option available.
    Admiral Richardson. Sir, I will tell you, one of the--
probably one of the most exciting parts of what is going on in 
the Navy right now is how we are transforming the way we do our 
human resourcing. And so we are very soon, with the Congress' 
support in terms of revolutionizing this, are going to be able 
to understand the individual priorities of every one of our 
sailors, which would include their families and their 
education. And so we will know better that if a sailor wants to 
achieve some geographic stability because he wants to put his 
kids through school, we will have some options that we can 
appreciate and offer him as a part of his compensation package.
    It is really becoming a much more dynamic marketplace with 
the sailors increasingly participating in their future destiny, 
all the while meeting the needs of the Navy and the Nation. And 
so this is an exciting part. If a pilot program that would 
further enhance a sailor's ability to control their own 
destiny, educate their children, we would be excited to 
participate in something like that. As I end 37 years, we have 
5 children, we have moved 21 times, we have experienced this 
personally, and it is something that we need to make as smooth 
as possible.
    Mr. Banks. I appreciate that very much.
    As the NDAA soon approaches us, perhaps we could work with 
you to see if the Navy might be the best home for such a pilot 
program to support our military families as they face this 
difficult issue.
    I don't have more, Mr. Chairman. I will yield back with 
that. But this is an important subject, something that I hear 
from so many families about is, as they make that tough journey 
in their service and faced--our military families are the--they 
are the last families that should be faced with the stress of 
choosing whether to send their children to a bad school or 
poor-performing school because they are moved to a new station, 
and it is something I think this committee ought to do a lot 
more about.
    With that, I yield back.
    Mr. Courtney. Thank you, Mr. Banks.
    Congresswoman Luria.
    Mrs. Luria. Well, thank you.
    And I wanted to pick up, Admiral Richardson, where we left 
off, because the current law says that we need to have 11 
aircraft carriers. But you are bringing us a budget that 
actually is asking us in your 30 ship--your shipbuilding plan 
to never attain that goal.
    So can you explain the disconnect? Are you coming to us and 
asking us to change the law about the number of carriers that 
we need?
    Admiral Richardson. I am not aware of any legislative 
proposal to change the law there yet. I mean, it takes a while 
to get up to 12. It is outside the 30-year shipbuilding plan by 
the time we reach 12.
    Mrs. Luria. Well, I understand that. But we voluntarily let 
ourselves dip to 9 when we could have been at 10 during those 
timeframes.
    My next question, and this is something that Chairman 
Forbes asked during a previous hearing when he was still here. 
Has the United States Navy ever made the determination that the 
presence of an aircraft carrier strike group has had a 
significant role in deterring a conflict from going from phase 
0 to phase 3?
    Admiral Richardson. The answer to that is yes.
    Mrs. Luria. Okay.
    Admiral Richardson. I mean, it is a tremendously cost-
imposing thing. That is kind of a--that is a difficult question 
to answer briefly. And deterrence is a difficult thing to 
measure, in general, you know, how did something not happen, 
but----
    Mrs. Luria. So Secretary Stackley's response at the time 
was that he would go as far to say that it is the cornerstone 
or our maritime strategy. Do you, in principle, agree with that 
assessment?
    Admiral Richardson. It is the fundamental fighting element 
of the United States Navy right now.
    Mrs. Luria. Okay. And, Secretary Spencer, you quoted some 
efficiencies that we gained through the Ford-class aircraft 
carrier. And one of those is that you assess that the 
maintenance costs go down by 20 percent.
    So the Ford-class carrier cycle, and this was also 
previously reported in a hearing before the Congress, is that 
that cycle is 43 months versus the 36 months that we have for 
the Nimitz-class, which would allow the ship to deploy more 
frequently over its life cycle and only have to dry-dock once 
every 12 years and result in this overall 20 percent reduction 
in maintenance.
    However, we are still planning to operate on a 36-month 
cycle. So it doesn't appear that, although we have built an 
efficiency of having a 43-month cycle, more availability to 
deploy and more presence, that we are actually planning to 
execute to that and take advantage of the 20 percent reduction 
in maintenance that this should afford us.
    Can you explain that disconnect?
    Secretary Spencer. I think you will see us work that into 
the plan.
    Mrs. Luria. So then would the OFRP change and all surface 
combatant cycles would extend to 43 months?
    Secretary Spencer. I will let the CNO address that. But if, 
in fact, we have the efficiencies, I don't know why we wouldn't 
accept and avail ourselves to them. But it is not universal 
across all forums.
    Admiral Richardson. Ma'am, as you alluded, we are going to 
have to take a look at the escorts, the auxiliary ships, and 
everything that supports that strike group, the air wing. And 
so it really is a force that deploys together. The fact that we 
designed in 20 percent less maintenance cost, we certainly 
intend to take advantage of that, whether it is a 36 or a 
longer month OFRP.
    Mrs. Luria. Okay.
    Admiral Richardson. And the OFRP, in general, is designed 
to be dynamic. We have changed it several times, as you and I 
have discussed. I mean, this is not something that, you know, 
is written in stone. It will change as well to respond to 
circumstances.
    Mrs. Luria. Thank you.
    And so over the course of several hearings that we have had 
on this topic, both in the full hearing as well as within 
Seapower, I have, you know, tried to distill the difference 
between actual presence versus availability to deploy and surge 
capability that you are creating with the OFRP.
    And I just wanted to close out my comments with something 
that Secretary Mabus said during his last hearing before this 
committee. His quote is: While there has been discussion about 
posture versus presence, the simple fact is that, for the Navy 
and Marine Corps, our posture is presence. And there is no next 
best thing to being there. Maintaining that presence requires 
gray hulls on the horizon.
    And have you changed in views, Mr. Secretary, from your 
predecessor as far as the importance of presence? And we seem 
to have emphasized surge capability over presence. Can you 
comment on that?
    Secretary Spencer. A policeman on every corner will deter 
crime. I would love to have a gray hull on every corner. I do 
not have that luxury. So it is a portfolio management, risk 
management model that I must deal with.
    Yes, posture is presence, and, yes, that is a deterrent. I 
have to use it judiciously, or I could produce it judiciously 
for the COCOMs [combatant commands] to use judiciously.
    Mrs. Luria. Okay. And why is it that they are not getting 
the requested amount? I have had the opportunity to ask three 
COCOMs before this committee what percentage of presence they 
are getting versus their request, and CENTCOM [U.S. Central 
Command] said about one-fifth, EUCOM [U.S. European Command] 
one-third, and PACOM [U.S. Indo-Pacific Command], obviously, 
they have the additional presence of the carrier on station in 
7th Fleet, said about 70 percent.
    So is there something--is there a disconnect in the process 
by which the COCOMs are requesting this but we are not 
providing that? Or do we need to look at the realism of the 
request that they are making versus off the threats in their 
theater?
    Secretary Spencer. I will let the CNO dive in here also. 
But, I mean, it is a supply-demand. And we try to do the best 
we can, obviously, you know, managing the risk that we have.
    I am sure, as the combatant commander, the balancing threat 
versus asset is a model they have to deal with. They feed it 
into the machine. They feed it into our request. We have the 
assets that we can provide to them.
    Admiral Richardson. If I could just pile on to that. 
General Neller and I both worked in the part of the Joint Staff 
that sort of did this math over time. I think historically we 
meet about 50 percent of the combatant commanders' requests as 
a joint force, and that would include the Navy if you average 
everything out.
    And it goes exactly to what the Secretary said. It is a 
matter of what forces are available versus the demand. The 
difference in that is risk. And we prioritize our presence so 
that we can minimize our global risk. That, again, is a very 
dynamic scenario, and so we work that continuously. But every 
year, you know, they redo the entire plan.
    And so one thing we have to also address is that we don't 
overdrive the force employment part of the equation so that we 
underdrive the maintenance, training, and certification parts 
of the equation, or we will find ourselves back into the same 
imbalance that led to the unreadiness in 7th Fleet.
    General Neller. Let me just add on that. I don't want to 
get into too much information here in a public setting. But 
there is about 10 capabilities that the Department of Defense 
has that are never met for the COCOMs. And they are 
unconstrained in their requests. They can say this is what I 
believe I require to do my mission. And so we meet that.
    But naval forces, submarines, cruiser/destroyers, carrier 
strike groups, amphib ready groups, ARG [amphibious ready 
group]/MEUs [Marine expeditionary units] are always deficient, 
which is a capacity. And so we do the very best to meet that. 
And that is the tension between the COCOM and the force 
provider.
    So that is why we have the discussions about how large a 
Navy do we need to have to meet this. And I think--I am not 
going to put words in Secretary Mabus' mouth, but I believe 
what he was trying to do at that time was to say we need to 
have enough presence, which means we need to have a larger 
Navy.
    Mrs. Luria. Okay.
    Admiral Richardson. Which our 30-year shipbuilding plan 
supports.
    Mrs. Luria. So we need--Commandant, you said we need to do 
the most we can do to meet that, yet I will go back to my very 
first question I asked earlier in the hearing. We are planning 
to decommission 6 cruisers, no investment in the ship-to-shore 
connector, decommission an aircraft carrier halfway through its 
life cycle, and decommission 11 minesweepers, yet we are doing 
everything we can do to meet that, yet we are voluntarily 
reducing our capability and the number of ships that we have 
over the next several years?
    Secretary Spencer. That has to be balanced, Congressman, 
with what it costs. It might not be economically worthwhile 
with the risk balance to keep those cruisers going versus where 
those dollars can be placed for more effective deterrence in 
some other asset.
    Mr. Courtney. Great. Okay. Well, thank you, gentlemen. It 
was a good exchange.
    Final word, Mr. Gallagher.
    Mr. Gallagher. Well, let me follow up on that. I think I 
would like to associate myself with the thrust of Mrs. Luria's 
line of questioning, which is to say if you--there simply is no 
way to do deterrence by denial, particularly in the INDOPACOM 
[U.S. Indo-Pacific Command] theater, unless we find a way to 
get more Navy-Marine Corps tooth into the blunt and contact 
layers, right? But then the question becomes, to your point, 
Mr. Secretary, what is the right mix of tooth? What is the 
right mix of ships and sailors and Marines, and what is the 
overall cost, because it doesn't need to be all carriers, 
obviously. We have a lot of tools at our disposal.
    And I would just like to push on that. Admiral Richardson, 
in your Design for Maintaining Maritime Superiority 2.0, you 
argue that Chinese and Russian actions may imperil the, quote, 
diplomatic, economic, and military bonds that link the United 
States to its allies and partners.
    And if I understood your answer to my previous question, 
you believe that the future frigate will play a critical role 
in the contact and the blunt layers in preventing this from 
happening and in strengthening these diplomatic, economic, and 
military bonds.
    So to get to the issue, this sort of tradeoff that we have 
to make, I appreciate the desire to control cost. I understand 
that the Navy can't afford a ``DDG lite.'' But, Secretary 
Spencer, can you walk me through what went into lowering the 
projected cost of the second FFG(X) from 950 to 800? In other 
words, what specific costs and capabilities did you remove from 
the program?
    Secretary Spencer. Didn't remove anything, Congressman. 
That is a great question. That is learning curve. You build 
something once, you know how to build it. You build it twice, 
you know to build it better. Three, four, five, you come down 
the industrial learning curve. That is what you are witnessing 
for the 800. No capability or capacity reduction.
    Mr. Gallagher. And then, obviously, the frigate has an 
aggressive detail design and construction award timeline. And 
if we sort of fall behind that timeline, it is going to result 
in, you know, a loss of thousands of jobs.
    Do you believe you are on track to execute this contract by 
the end of fiscal year 2020?
    Secretary Spencer. We are. And I want to make sure that you 
understand, when we say aggressive, it is aggressive on a 
historical basis. These are all proven form designs.
    Mr. Gallagher. Sure. And, Admiral Richardson, if you would 
comment.
    Admiral Richardson. It goes to what the Secretary has 
talked about in terms of bringing industry in early on into the 
requirements process. And so that has been a tremendously 
informative discussion. And it enhances the confidence that we 
are going to be moving into the frigate with more mature 
technology, proven hull designs, leveraging combat systems, the 
latest versions. And really just--now, it comes down to 
integration of that technology. And so we have good confidence. 
The request for proposals went out just a little bit early, and 
so we are stepping through this on pace.
    Mr. Gallagher. Yeah. And, again, I would like to just get 
back to my colleague's line of questioning. I mean, I think, 
again, we can have a debate about the right mix of ships. But I 
think in any analysis, particularly as you look at the first 
island chain in the priority theater, I mean, it will require 
more ships. Now, we could have a higher degree of autonomous 
ships. We can do creative things with those ships like put 
LRASMs [long-range anti-ship missiles] on Mark VI patrol boats 
and things like that. So we have to think creatively.
    But I think we all want to execute a plan with as much 
urgency and alacrity as humanly possible. And if we keep sort 
of changing the plan and timelines get delayed, then I think 
that is where a lot of us get frustrated.
    Admiral Richardson. Sir, I think one of the biggest changes 
of last year's 30-year shipbuilding plan to this year's is 
that, one, we all agree a bigger Navy is what the Nation needs. 
That is why we are building towards 355 ships. This year's plan 
gets to 355 20 years earlier than last year's plan. And so I 
think these are changes that the Nation would be in favor of to 
reach our goal 20 years earlier.
    Mr. Gallagher. And I will betray my bias in a closing 
comment here, as a Marine and as a navalist, as I read the NDS 
[National Defense Strategy] and NSS [National Security 
Strategy], and I have tried to read it closely, I think it is 
asking the Navy and the Marine Corps to do a lot more and play 
a unique role. I mean, if you just look at, again, the priority 
theater and the shift to deterrence by denial--and I don't mean 
that as a knock on the Army and the Air Force and everyone we 
work with; they have a critical role. But I think in 
particular, that Navy-Marine Corps team is going to be critical 
if we are going to actually implement the National Defense 
Strategy.
    It is remarkable to me that we actually have a bipartisan 
agreement on this major conceptual shift contained within those 
documents. But implementing it is a whole other story. And that 
is going to be a task for all of us here. And it is a budget 
process. It is a strategy process. And so I just hope to work 
with all of you as we try and simply implement the National 
Defense Strategy. And if nothing else, that we don't slide 
backwards over the next 2 years after having 2 years of success 
in this committee.
    And with that, I yield my remaining 8 seconds.
    Mr. Courtney. Here, here. Thank you, Mr. Gallagher. So I 
think we did it.
    I just want to again thank the witnesses for your 
endurance, again. And, obviously, we had the delay because of 
the votes. But I really appreciate you hanging in there with us 
and being patient to answer all the questions.
    And with that, I declare the hearing closed.
    [Whereupon, at 1:20 p.m., the committee was adjourned.]
      
=======================================================================


                            A P P E N D I X

                             April 10, 2019
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 10, 2019

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 10, 2019

=======================================================================

      

                   QUESTION SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. I appreciate the Department recognizing the critical 
need for a third Virginia-class submarine in its FY20 budget request. 
However, I am concerned that the Virginia Payload Module (VPM) is not 
funded along with the third submarine. What are the implications of 
removing a VPM from the FY20 and FY21 budgets, especially as it 
pertains to shipbuilding and the supply base?
    Admiral Richardson. There would be one non-VPM Blk V VCS in FY20, 
and one non-VPM Blk V VCS FY21. While this decompresses stressed 
vendors and reduces vendor construction risk, it requires additional 
design effort to create a non-VPM Blk V design. The development of the 
required design change to the 20-1 ship will begin efforts in June 2019 
to support a FY20 construction start, in conjunction with completing 
the VPM design. Disruption to the supply base will be minimal as 
suppliers will continue to provide many VPM-related components, such as 
520-ton air conditioning plants, circuit-D, internal communications 
system and impressed current cathodic protection system, that will be 
used to build these non-VPM Blk V ships. Removal of a VPM ship in FY20 
provides relief to the payload tube component and assembly vendors who 
are late to the just-in-time planned deliveries. According to initial 
government assessments, the payload tubes are projected to be seven 
months late to a 19-2 ship construction start in September 2019 (first 
VPM hull), but supports the current critical path build plans, albeit 
with a slow start to payload module integration.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN
    Mr. Larsen. Secretary Spencer, what steps is the Navy taking to 
address the current and projected shortfall? Does this strategy address 
issues dealing with both supply (limited number of schoolhouse spots 
and training hours) and demand (heavy recruitment from private sector)? 
On which types of aircraft is the pilot shortfall particularly acute?
    Secretary Spencer. Naval Aviation's inventory and accessions 
(tactical, maritime, and rotary wing combined) remain sufficient to 
meet operational requirements. However, declining retention of mid and 
senior grade officers in some communities--particularly acute among 
strike fighter and electronic attack pilots--present challenges to 
aviation's long-term health. We are fully engaged in reversing these 
adverse trends along multiple fronts, including: increasing production, 
establishment of a readiness recovery team, enhanced monetary and non-
monetary incentives, and personnel modernization initiatives. The 
readiness recovery team is addressing maintenance, personnel retention 
and training issues, spare parts availability, and depot-level 
maintenance challenges contributing to decreased strike fighter 
aircraft availability--a primary quality-of-service dissattisfier for 
strike fighter pilots. The readiness team is identifying solutions in 
systemic supply, maintenance, manning, and facilities shortfalls. 
Consistent and full funding of readiness accounts across the Future 
Years Defense Program will be key to success. Bonus and flight pay 
adjustments have been well-received, and initial ``take rates'' are a 
leading indicator of improving retention and manning readiness. 
Sustained support for readiness enabler accounts, including flight hour 
and aircraft spare parts, is critical to improving the quality of 
aviation service.
    Additionally, aviators have consistently expressed interest in 
enhanced career path flexibility, opportunities for personal and 
professional development, and flexible, merit-based, competitive, 
monetary incentives. Accordingly, Navy has:
    <bullet>  increased options for graduate school and fellowships 
through initiatives, such as Tours-with-Industry and the Career 
Intermission Program.
    <bullet>  implemented changes in the legacy aviation career path to 
offer options, such as permanent flight instructor assignments.
    <bullet>  increased the Aviation Bonus (for department head and 
command assignments) and Aviation Incentive Pay (flight pay), 
synchronizing targeted increases in flight pay and bonuses, in a 
mutually supportive fashion, upon attainment of major aviation 
leadership milestones (i.e., Department Head, Command and Major 
Command).
    We remain optimistic that this multi-faceted approach will 
effectively address issues contributing to aviators leaving the Navy. 
We are closely monitoring the impact and effectiveness of these 
initiatives, and will make further changes as necessary.
    Mr. Larsen. Admiral Richardson, to what do you attribute the number 
of PEs in the EA-18G aircraft, and what steps are you taking to address 
pilot safety concerns about that airframe specifically?
    Admiral Richardson. The majority of physiological episode (PE) 
events in the EA-18G have been attributed to an icing condition that 
can occur inside the Avionics Flow Valve, in large part due to Naval 
Air Station (NAS) Whidbey Island late fall/winter environmental 
conditions and EA-18G operating profiles. Two primary efforts have been 
underway to address this condition. The first is a revision to 
Environmental Control System (ECS) software, which was quickly fielded 
as an interim solution, and has provided a significant reduction in EA-
18G icing-related PE instances in the short time since implementation. 
A more definitive solution to the icing issue is incorporation of an 
ECS Duct Heater, which is currently undergoing development. Upon 
completion of successful testing, scheduled for this Summer, component 
production will commence with aircraft installations planned to begin 
at NAS Whidbey Island Fall 2019.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER
    Mr. Turner. Why do events such as the Fitzgerald and McCain Navy 
mishaps continue to increase year after year and what actions are being 
done to arrest this negative trend? Could you speak about the mishap 
review and oversight process? Learning the right lessons so we don't 
repeat the past is important--can you tell us how you take lessons you 
have learned from your safety investigations and use them to make 
recommendations that would stop future accidents from occurring? And 
further, do you currently have a significant backlog of mishap safety 
investigation recommendations which have not been closed? What are your 
plans to immediately address this backlog?
    Secretary Spencer and Admiral Richardson. 1) Why do events such as 
the Fitzgerald and McCain Navy mishaps continue to increase year after 
year and what actions are being done to arrest this negative trend? 
Based on data collected by the Navy Safety Center (NAVSAFECEN) to date, 
numbers of the most severe category of Afloat Class A Mishaps (defined 
as total property damage of $2 million or more and/or fatality or 
permanent total disability to personnel) did not increase following the 
2017 FITZGERALD and JOHN S. MCCAIN incidents. In 2017, there were five 
and in 2018 there were five. In 2019 there has been one. Afloat Class B 
Mishaps went from 18 in 2017 to 21 in 2018, with nine currently in 
2019. This trend coincides with a Navy-wide commitment to increasing/
improving mishap reporting.
    2) Could you speak about the mishap review and oversight process? 
Class A mishap boards are convened by the controlling custodian/
command, the Navy or Marine Corps Flag or General Officer who is 
responsible for achieving readiness and safety standards while 
optimizing total resource requirements. The mishap board reviews three 
types of evidence: People (witnesses, survivors), Physical (wreckage, 
tools and equipment, facilities), and Documentation (records and 
logbooks, photos and video, electronic media). There is no standard 
safety investigation timeline. These investigations vary based on 
factors such as the severity of the mishap, whether or not the wreckage 
can be recovered or reconstructed, and whether there were survivors to 
make statements. The report is due 30 days from the date of the mishap, 
but extensions are often requested and approved due to the length of 
some engineering investigations and other extenuating circumstances. 
Once the mishap safety investigation is complete, the board produces a 
report detailing whether each causal factor is accepted or rejected. 
When a hazard is discovered during the safety investigation or at any 
point in the process, a non-privileged hazard report (HAZREP) is often 
released to provide timely notification to the fleet and program 
managers. These HAZREPS allow systems commands to decide if groundings, 
deadlines, inspections, or other mitigating actions are necessary 
before the continued employment of the type of aircraft or equipment 
involved is permitted.
    3) Learning the right lessons so we don't repeat the past is 
important--can you tell us how you take lessons you have learned from 
your safety investigations and use them to make recommendations that 
would stop future accidents from occurring? The primary purpose of the 
mishap review and oversight process is to prevent recurrence. After a 
mishap investigation is finalized, every causal factor is required to 
have at least one corrective action or recommendation with which it is 
associated. The Naval Safety Center (NAVSAFECEN) tracks all open Mishap 
Recommendations (MISRECs) and hazard recommendations (HAZRECs). 
NAVSAFECEN centralized and strengthened its lessons learned program 
office with the sole focus of developing products aimed at various 
fleet audiences. Sharing this type of information across communities is 
essential, because the true extent of many safety problems go well 
beyond the mishap unit or platform. NAVSAFECEN also produces periodic 
Safety Gram, FLASH, and Safety Bulletins, messages for their community 
safety representatives. The messages provide community safety trends, 
contain relevant and recent mishap investigation and hazard reports, 
and distribute type/model/series community lessons learned and best 
practices across all stakeholders. In addition to the Safety messages, 
NAVSAFECEN publishes periodic magazines and safety related posters 
promoting safe practices and relevant processes to enforce a culture of 
safety. The analysis of data collected from mishap safety 
investigations is key to understanding and communicating mishap 
information. However, NAVSAFECEN is working to get ahead of mishaps 
with preventive and prescriptive mishap data analysis and informed risk 
identification through strategic partnerships that perform in-depth 
studies to gain a better understanding of the human and materiel 
factors that lead to mishaps so mitigations can be developed to stop a 
mishap before it happens. NAVSAFECEN works with the fleet and type 
commanders to develop mutually beneficial data sharing agreements that 
will allow for improvements in risk and hazard identification and 
analysis. This ``deep dive'' analysis should eventually allow for the 
identification of risk trends that become a predictive and preventative 
tool, and increases the need for an analytical workforce, leading to a 
development of sophisticated risk models using these new data streams 
and growing organic capabilities and capacity. To enhance the 
analytical ties to the fleet, NAVSAFECEN modified the Afloat Safety 
Assessments to capture common factors related to all afloat mishaps, 
focus on unit culture, and use every opportunity to directly engage the 
fleet Sailor via face-to-face interaction and safety seminars at every 
major fleet concentration area.
    4) And further, do you currently have a significant backlog of 
mishap safety investigation recommendations which have not been closed? 
 What are your plans to immediately address this backlog? NAVSAFECEN 
works closely with commands so that MISRECs and HAZRECs backlogs are 
reduced, while aggressively promoting faster completion of 
recommendations. NAVSAFECEN is currently tracking 538 open aviation, 
afloat, shore based, and off-duty/recreational mishap or hazard 
recommendations. To put this number in context, the Naval Enterprise 
has averaged 2,850 MISREC/HAZREC closeouts per year for the past eight 
years and 1,762 MISRECs/HAZRECs have been closed out thus far in FY19. 
These recommendations can range from procedural or programmatic changes 
to aircraft redesign or technology procurement. Complex engineering 
solutions and time to fund and implement improvements across the fleet 
can impede the resolution of outstanding MISRECs/HAZRECs as does the 
continual flow of new MISRECs/HAZRECs into the system.
    Mr. Turner. What impacts would a return to sequestration funding 
levels have on the Navy's readiness and modernization? Additionally, 
what impacts would a CR have on these plans?
    Secretary Spencer and Admiral Richardson. If Budget Control Act 
caps are left in place, and sequestration were to occur in FY 2020, 
without Overseas Contingency Operations increases, there would be 
severe impacts to the Navy's readiness recovery and its path to a 
larger, more capable fleet. This will result in a smaller, less lethal 
force requiring a revision of the National Defense Strategy. The Navy 
would be hard pressed to meet current operational requirements or plan 
for future contingencies. Budget uncertainty is highly detrimental to 
the Navy. We must be able to outpace our competition and act in real 
time to defend our nation's interests in a rapidly changing global 
security environment. The budget uncertainty that would result from a 
Continuing Resolution (CR) in FY 2020, of any length, will erode and in 
some cases reverse the Department's readiness recovery effort that 
began in 2017. Given the strategic environment and the pace by which 
our adversaries are modernizing and expanding, any setback in the 
ability to recover readiness and modernize will pass additional risk to 
Combatant Commander validated needs. A CR will also directly and 
adversely impact our people and their families in an environment where 
the competition for talent is a critical enabler for current and future 
readiness. Typically, CRs lock the Department into last year's budget 
with last year's priorities. CRs prohibit new starts and production 
rate increases above previous year levels, and the movement of funds 
between appropriations is constrained. A CR in FY 2020 would induce 
risk in our readiness to conduct operations by deferring maintenance, 
inhibit modernization of our critical weapons systems, and slow 
procurement of weapons, ships and aircraft needed to stay ahead of our 
adversaries in an era of great power competition.
    Mr. Turner. What strategic advantages does the continued 
development of low-yield SLCM provide the Navy to counter threats and 
support the National Defense Strategy?
    Secretary Spencer and Admiral Richardson. Low yield nuclear weapons 
fulfill the defense objectives outlined in the 2018 National Defense 
Strategy of defending the homeland from attack, defending allies from 
military aggression, and bolstering partners against coercion. These 
weapons also support the 2018 Nuclear Posture Review goals of providing 
a range of arms control compliant response to our adversaries. Our 
nuclear deterrent must dissuade any adversary from mistakenly believing 
it could credibly coerce the United States. Modifying a small number of 
submarine-launched nuclear warheads and the eventual fielding of a sea-
launched cruise missile (SLCM) raise the nuclear threshold in the face 
of Russian and others' limited use doctrines and capabilities. Low 
yield weapons and SLCM address the growing disparity in non-strategic 
nuclear weapons between Russia and the United States, thereby creating 
incentives for Russian participation in future rounds of arms control. 
These capabilities assure European and Asian allies by demonstrating 
the United States can credibly and decisively respond to any deterrence 
scenario. They ensure the nuclear threshold remains high, and that 
deterrence remains effective.
    Mr. Turner. The rate of pilots experiencing physiological episodes 
(PE) is back on the rise this year. The Navy has yet to pinpoint a 
cause for the PEs--air contamination has already been ruled out. Mr. 
Secretary, could you touch on this subject for a minute and talk about 
what is being done by the Navy to address PEs and ensure the safety of 
our pilots? There is evidently much work to be done as the rates of 
pilots experiencing PEs are rising, not decreasing.
    Secretary Spencer. To answer this question, we are looking at three 
separate categories: Hornets and Super Hornets, training aircraft, and 
aircrew systems: In aggregate, F/A-18 physiological episodes (PE) rates 
are trending downward, although there have been seasonal and type/
model/series variances. For example, F/A-18A/B/C/D model aircraft PE 
events have decreased while F/A-18E/F/G rates increased over the cold 
weather months, which has historically been seen and is being addressed 
through revision to Environmental Control System (ECS) software and 
incorporation of an ECS Duct Heater. Overall, the rate of PE is down 
17% since the November 2017 peak. As the result of failure analysis and 
root cause and corrective action (RCCA) efforts conducted during 2018-
2019, five significant changes to the F/A-18 will be fielded in the 
next year that address PE. These are: Cockpit Pressure and Onboard 
Oxygen Generation System (OBOGS) Monitoring System, Secondary Bleed Air 
Regulating valve revision, Primary Bleed Air Regulating valve revision, 
ECS Duct Heater, and Cabin Air Exit System Removal. Additional efforts 
and improvements include: 1) the Hornet Health Assessment and Readiness 
Tool, a near real time ECS data analysis program, which has begun fleet 
wide monitoring to preventatively warn squadrons of ECS system 
deviation; implementation of a revision to aircrew breathing strategies 
and 2) the fielding of an ECS Control Software Revision (Phase II) in 
2020, which is a major ECS software update that involves over 30 
changes to improve reliability, fault detection, recovery, and 
component interoperability. The Physiological Episode Action Team 
(PEAT) has also completed a study with the Naval Experimental Diving 
Unit and is now moving to Phase 2 of that effort, and has two other 
studies underway with Brooks Labs and Naval Medical Research Unit--
Dayton, with results expected by early Calendar Year 2020. These 
studies are critical to further understanding root causes for PE.
    The Navy has met with measured success in reducing PE rates in 
training aircraft. The T-45 average PE rate has decreased over the past 
year and has improved dramatically since Fiscal Year (FY) 2017, falling 
from a high of 63.1 events per 100,000 flight hours to 7.3 events per 
100,000 flight hours in FY 2019. The Navy has implemented a number of 
changes to improve pressure and oxygen concentration provided by the 
OBOGS. These improvements include an increase to the engine idle 
setting, elimination of obsolete components, and increased system 
maintenance. Future modifications include an additional caution light 
to advise of oxygen system degradation, and an Automatic Backup Oxygen 
System to provide supplemental oxygen in case of momentary reductions 
in system performance. Both designs are nearing completion, and 
activities leading to test and production are well under way. The Navy 
T-6 PE reporting rate has also decreased from a high of 5.8 events per 
100,000 flight hours to 4.7 events per 100,000 flight hours in FY 2019. 
The Navy T-6 PE events from FY 2017 and FY 2018 were attributed to 
hardware or equipment failures. The Navy T-6 PE events in 2019 were 
traced to component failures due to the age of the failed components 
and the overall age of the aircraft. The affected aircraft have been 
repaired, tested, and returned to service. Navy engineers and 
scientists developed and deployed a sensor to collect system 
performance data and a new oxygen concentrator has been procured to 
improve reliability and provide a data logging capability. A new oxygen 
concentrator has been procured to improve reliability and provide a 
data logging capability. The concentrators are currently being 
installed.
    The Navy continues to coordinate with the Air Force and share data, 
findings, recommendations, and component upgrade efforts. The Navy, Air 
Force, and industry have engaged in multiple lines of effort to 
mitigate and solve PEs. We have raised awareness to fleet aircrew and 
maintainers through direct fleet engagement via the PEAT and Fleet Air 
Introduction Liaison Survival Aircrew Flight Equipment (FAILSAFE) team. 
Navy flight equipment experts from FAILSAFE are providing on-site 
refresher training for all Navy and Marine Corps tactical aircraft 
squadrons in order to address gear fit issues identified as potential 
contributors to PE and will continue to do so on a recurring schedule. 
All fleet tactical aircraft aeromedical safety officers will receive 
refresher training on identifying common fit issues during the annual 
FAILSAFE working meeting this August and the Aircrew Systems Program 
Office (PMA202) is working with the Naval Survival Training Institute 
to ensure aircrew understand the difference between proper and poor 
fit. There is an on-going surveillance program of specific materials in 
the OBOGS, which have found no issues to date. In support of the RCCA 
branch closeout, we have engaged in multiple efforts, such as the Joint 
Combined Aircrew System Tester, to check mask fit and pre-flight 
integrity of oxygen flow; the Enhanced Emergency Oxygen System, to 
increase the emergency oxygen available to aircrew in the event of an 
in-flight PE; an upgrade to the T-45 OBOGS; an evaluation of alternate 
oxygen masks to improve the ease of mask fit and aircrew mask comfort; 
and multiple physiological monitoring products that identify aircrew 
physiological state for real time alerts to aircrew and overall data 
analysis of physiological performance inflight.
    Mr. Turner. The Navy has identified strike fighter shortfall of 54 
aircraft, which amounts to one carrier wing. Admiral Richardson, what 
impact does this shortfall have on current Navy readiness, and what 
actions are being taken now with this budget request to mitigate the 
shortfall?
    Admiral Richardson. Strike Fighter Inventory Management (SFIM) is 
focused on ensuring the Navy has the Tactical Aviation assets required 
to support National Defense Strategy (NDS) guidance, and is dependent 
upon three key factors:
    --  Procurement of new strike fighters,
    --  Depot maintenance capacity to sustain, modernize, and extend 
the service life of the existing inventory, and
    --  Manage aircraft utilization rates (e.g. manage the shortfall)
    The President's Budget (PB) for FY-20 reduces the Department's 
strike fighter shortfall to single digits by the end of the Future 
Years Defense Plan (FYDP) by:
    --  Procuring 24 F/A-18E/Fs (84 total across the FYDP),
    --  Procuring 10 F-35Cs (92 total across the FYDP),
    --  Procuring 15 F/A-18E/F Service Life Modification kits (160 
total kits across the FYDP).
    --  Funding $42.5 million in infrastructure investments to procure 
modern equipment and tooling in Naval Aviation Fleet Readiness Centers.
    In addition to procurement efforts in PB-20, the Naval Sustainment 
System (NSS) is a comprehensive approach of industry best practices to 
address F/A-18 and other platform readiness shortfalls at the Depot, 
Intermediate, and Operational levels. NSS focuses on:
    --  Fleet Readiness Center reform,
    --  Operational Level Maintenance reform,
    --  Supply Chain reform,
    --  Engineering reform,
    --  Governance and accountability, and
    --  ``Aircraft On the Ground'' cell:
       <bullet>  Prioritization of supply and maintenance actions to 
get more flight-line aircraft into MC status sooner.
       <bullet>  Reduce turnaround time, increase predictability, and 
encourage more productive organizations.
    Finally, aircraft utilization rates are managed, and thus strike 
fighter shortfall is managed, via the assignment of a reduced number of 
aircraft to squadrons early in their turnaround training cycles (e.g. 
maintenance phase, aircraft in depot, etc.) when fewer training hours 
are required to meet reduced readiness standards. This resultant 
shortage in available aircraft, and lower readiness, to those squadrons 
in ``garrison'' directly equates to their inability to rapidly deploy, 
should the need arise. All squadrons assigned to Carrier Air Wings in 
readiness sustainment or on deployment are assigned a full complement 
of Strike Fighters.
    Mr. Turner. The Marine Corps is requesting 10 fewer F-35B aircraft 
in FY20 than was planned in the FY19 budget, but increased the 
procurement of F-35C aircraft by four, for a total of 10 F-35C aircraft 
in FY20. The Navy is requesting 2 fewer F-35C aircraft in FY20 than was 
planned in the FY19 budget. Why is the current projected mix of Marine 
F-35B and F-35C aircraft optimal to support achieving the goals of the 
National Defense Strategy?
    General Neller. The U.S. Marine Corps (USMC) continues to evaluate 
the proper ratio of its F-35B and F-35C aircraft based on the pacing 
threat and steady-state requirements across the conflict continuum. The 
current program of record (POR) of 67 F-35Cs and 353 F-35Bs is 
proportionally correct for the USMC at this point in the plan. Today's 
F-35C procurement plan allows the USMC to sustain four squadrons. The 
plan meets the Tactical Air Integration (TAI) commitment the USMC has 
with the USN to include the Navy Master Aviation Plan (MAP) deployment 
requirements on CVN Carrier Strike Groups. The aircraft are also used 
for deployments in support of all USMC global force commitments. The F-
35C brings added capabilities to the USMC and the Marine Air-Ground 
Task Force (MAGTF) in the form of increased range, payloads and 
lethality. The F-35B brings the vertical landing capability that 
provides critical support to the Marine Expeditionary Unit (MEU) 
deployments aboard L-Class ships, a mission that cannot be performed by 
the F-35C. With a mixture of 10 and 16 plane F-35B squadrons, the 
current transition plan allows MAGTF commanders the flexibility to 
deploy a 6-plane MEU detachment all the way up to a full 16-plane 
squadron.
    Mr. Turner. Marine ground units are almost wholly without an 
effective organic air defense system except for the man-portable 
Stinger missile system and a small number of ground based air defense 
systems protecting deployed forces. Please provide the committee an 
update on Marine Corps plans to develop a family of systems that can 
defend against UAS, aircraft, cruise missiles, and other airborne 
threats? Please describe if or how these plans are nested with the 
Army's efforts to field similar systems.
    General Neller. The Marine Corps is presently developing and 
fielding the Marine Air Defense Integrated System (MADIS) Family of 
Systems (FoS) to address UAS and aircraft threats against operational 
forces as well as installation counter-UAS requirements. MADIS' open 
architecture design integrates `best of breed' components among state-
of-the-art detect, track, identify, and defeat technologies. This 
approach maximizes and simplifies testing, integration, training, and 
system upgrades via the Program Executive Office-Land Systems (PEO-LS) 
Ground Based Air Defense (GBAD) Program Office. In addition to the C-
UAS mission, the MADIS improves on the Stinger missile capability by 
incorporating a vehicle mounted launcher enabling a more responsive 
engagement timeline. Initial Operational Capability (IOC) for the MADIS 
is FY21. Our GBAD efforts are nested closely with the Army's Maneuver--
Short Range Air Defense (M-SHORAD) as well as the greater Joint and 
inter-agency community of interest to ensure the most promising 
technologies are integrated into the MADIS program of record. While the 
final design is still under development, it is anticipated most major 
components will be shared by multiple services. Building upon Marine 
Corps defense in depth, our cruise missile defense (CMD) effort is in 
its early stages and moving forward as we analyze existing capabilities 
from partner nations with the intent to integrate existing Marine Corps 
sensors and C2 programs to complete the system. In Aug 2019, we will be 
conducting a live-fire demonstration at White Sands Missile Range to 
test the Skyhunter launcher/Tamir Missile integrated with the Common 
Aviation Command and Control System (CAC2S) and the AN/TPS-80 Radar (G/
ATOR). Concurrently, modeling and simulation of the missile is being 
conducted to inform leadership of the system's capabilities and 
limitations. Upon completion of the demonstration and simulations, a 
decision will be made on the way forward. In addition to Skyhunter, the 
Marine Corps is closely monitoring the Army's Indirect Fire Protection 
Capability (IFPC) efforts.
    Mr. Turner. What strategic advantages does the continued 
development of low-yield SLCM provide the Navy to counter threats and 
support the National Defense Strategy?
    General Neller. I defer to the Navy as Ship Launched Cruise 
Missiles (SLCM) is a U.S. Navy program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CONAWAY
    Mr. Conaway. Thank you for your time in appearing before the 
Committee. Knowing that the DOD has been tasked with completing a full 
financial audit, I am interested in the following:
    a. Is the USN committed to obtaining a full, unqualified audit 
opinion of the USN?
    b. Will you hold the incoming CNO chief accountable for his/her 
responsibility to moving the USN to a full unqualified audit opinion? 
Will you get the incoming CNO's commitment before confirmation by the 
Senate?
    c. Will you continue to dedicate adequate resources to the USN's 
audit efforts?
    d. Other information regarding the USN's efforts to achieve an 
unqualified audit opinion that you may believe helpful to answering the 
aforementioned questions, is welcome.
    Secretary Spencer. A. Yes, the Navy is fully committed to obtaining 
a full, unqualified audit opinion.
    B. The nominee for Chief of Naval Operations (CNO) has proven his 
commitment to the Navy obtaining a clean audit opinion during his 
tenure as Vice CNO, where he has co-chaired the Department of the Navy 
Audit Committee (with the Under Secretary of the Navy and Assistant 
Commandant of the Marine Corps). His leadership has been pivotal in the 
Navy completing the audit and in executing corrective actions to 
resolve audit findings. He has demonstrated his commitment to the audit 
by holding subordinate commanders accountable for results, which has 
enabled the Navy to complete a full inventory of Real Property this 
year. He is fully engaged with the audit and regularly receives 
briefings from organizational leadership on their progress.
    C. We will continue to dedicate resources to the Navy's audit 
efforts and request your continued support for our request for 
additional funding in Fiscal Year 2020 to support audit remediation and 
the transition off legacy systems. These areas provide a strong return 
on investment as they will reduce manual data entry, increase data 
transparency and usability, and support operational transformation 
efforts.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. BROWN
    Mr. Brown. In a written statement provided to this committee last 
spring, Assistant Navy Secretary ``Hondo'' Guertz said, ``The 
proliferation and technological progression of readily available 
Unmanned Aircraft Systems (UAS) to state and non-state actors have 
advanced at an unprecedented pace.'' As these adversaries become more 
sophisticated and use drones to conduct surveillance on our troops, 
disrupt critical missions or worse yet, harm our service members, the 
military, especially the Navy, needs a robust counter-UAS capability. 
What is the Navy doing to counter this threat in the near-term to 
protect our troops now and how is the Navy utilizing programs like the 
Rapid Prototyping, Experimentation, and Demonstration Program to 
acquire tested, commercially available counter-UAS technology?
    Secretary Spencer. The Navy, in coordination with the other 
Services and the Department of Defense, is pursuing an integrated 
Counter-UAS family of systems to protect high value and critical naval 
assets afloat and ashore. The Navy is rapidly fielding an initial 
capability, to be followed up by implementation of more robust and 
integrated solutions. The initial capability consists of existing 
commercial and government systems. The Navy is also pursuing refinement 
of material and non-material solutions, threat assessments, and 
development of advanced target discrimination and defeat capabilities. 
Systems fielded ashore include CORIAN (a commercial system), NINJA 
(developed by Air Force Research Laboratories), and Drone Defender (a 
commercial system). Systems fielded afloat include Drone Restricted 
Access using Known Electronic Warfare (DRAKE), Drone Defender, and 
existing ship's electronic warfare systems. Pending formal 
documentation, the Navy is also using the Maritime Accelerated 
Acquisition process to develop MK38 gun weapon system improvements to 
increase lethality against UAS as well as other threats.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CISNEROS
    Mr. Cisneros. We have spent billions of dollars to develop the 
Zumwalt-class destroyer, yet we are no longer procuring the ammunition 
for its primary weapon system and we will only have 3 Zumwalt-class 
ships as opposed to the original 32. What is the Navy doing to find a 
new mission for this ship as they're delivered over the next 3 years so 
we get something for the significant investment that has been made?
    Secretary Spencer and Admiral Richardson. In November 2017, after a 
comprehensive review of ZUMWALT Class requirements, the Navy refocused 
the primary mission of the Class from Land Attack to Offensive Surface 
Strike. The low observable characteristics of the hull form provides 
the Combatant Commander a unique capability not seen with other classes 
of surface combatants. Prior investments in stealth technology, power 
distribution, and capacity make the ZUMWALT Class ideal in fulfilling 
the Surface Strike mission in the era of Great Power Competition. The 
FY 2019 budget provided funding to integrate Maritime Strike Tomahawk 
(MST) and SM-6 Block 1A missiles to the class. Both are existing 
programs of record, and will combine to add long-range offensive 
capabilities. SM-6 Block 1A is scheduled to achieve Initial Operational 
Capability (IOC) on USS ZUMWALT in FY 2021. MST is scheduled to IOC in 
FY 2025. The Navy continues to explore additional options and emerging 
technologies to further enhance ZUMWALT Class lethality.
    Mr. Cisneros. I asked Chairman Dunford 2 weeks ago about statements 
you had reportedly made about the impact of the Southern Border 
deployments on the Marine Corps readiness. The Chairman replied that it 
wasn't the Southern Border deployment itself that is a problem, rather 
it is the unanticipated bill of the Southern Border deployment--along 
with many other unanticipated bills--that taken together are making it 
difficult for the Marine Corps to fund other priorities. Is the 
southern border deployment creating readiness challenges for the Marine 
Corps? And if it just another bill among many, is it a bill that makes 
it harder to pay for other priorities, like rebuilding Camp Lejeune or 
executing the Integrated Training Exercise at Twentynine Palms, 
California?
    General Neller. Although South West Border (SWB) operations have 
impacted some of the units providing support to the border, in the 
aggregate, the readiness impacts have been manageable. The Service has 
been able to mitigate readiness impacts through unit and personnel 
rotations. If the requirements to support the mission continue into the 
foreseeable future, the Marine Corps will continue to mitigate impacts 
to readiness through similar measures. To date, SWB mission has not 
significantly impacted our ability to meet our global commitments. In 
terms of funding; No, the bill associated with Southern Border 
deployment is not making it harder to pay for other priorities. There 
is a cost there, a small cost compared to others. We have a shortfall 
of just under $300 million of which the border mission is less than two 
percent, not including Hurricane Recovery shortfalls. The cost of 
supporting Southern Border deployment is one of many unplanned and 
unbudgeted factors that in total have created unprecedented budget 
shortfall challenges in our current fiscal year. The inability for the 
Marine Corps to reprogram money and the lack of a supplemental for 
Hurricane recovery efforts for the first six months of the fiscal year 
had forced the Marine Corps to cancel Alaska Exercise Midnight Sun and 
reduce participation in Exercise Northern Edge, as well as cancel 
participation by II Marine Expeditionary Force units in Integrated 
Training Exercise 3-19 and Scotland Exercise Joint Warrior 1-19. In 
order to address our immediate fiscal challenges and prevent further 
risk to readiness, the Marine Corps has pursued reprogramming and 
supplemental relief actions. The Marine Corps is grateful to Congress 
for the recently approved reprogramming and Disaster Relief 
supplemental and greatly appreciates continued Congressional assistance 
on these efforts.

                                  [all]
</pre></body></html>
